<html>
<title> - U.S. ECONOMY, U.S. WORKERS, AND IMMIGRATION REFORM (CONTINUED)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
     U.S. ECONOMY, U.S. WORKERS, AND IMMIGRATION REFORM (CONTINUED) 
=======================================================================
                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2007

                               __________

                           Serial No. 110-35

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

35-244 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


















                            C O N T E N T S

                              ----------                              

                              MAY 9, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     3
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     5

                               WITNESSES

Mr. T. Willard Fair, President, Miami Urban League
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Mr. Roy Beck, Director, NumbersUSA
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Mr. Steve Camarota, Ph.D. Director of Research, Center for 
  Immigration Studies
  Oral Testimony.................................................    18
  Prepared Statement.............................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     1
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     4
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     7
Prepared Statement of the Honorable Elton Gallegly, a 
  Representative in Congress from the State of California, and 
  Member, Subcommittee on Immigration, Citizenship, Refugees, 
  Border Security, and International Law.........................     8

                                APPENDIX
               Material Submitted for the Hearing Record

``The Impact of the Mariel Boatlift on the Miami Labor Market'' 
  by David Card, August 1989, submitted by the Honorable Zoe 
  Lofgren........................................................    53
``Is the New Immigration Really So Bad?'' by David Card, January 
  2005, submitted by the Honorable Zoe Lofgren...................    93
``Dollars without Sense: Underestimating the Value of Less-
  Educated Workers'' by Walter A. Ewing, Ph.D. and Benjamin 
  Johnson of the Immigration Policy Center, May 2007, submitted 
  by the Honorable Zoe Lofgren...................................   136
``The State of Civil Rights'' by Theodore M. Shaw from The State 
  of Black America 2007, published by the National Urban League, 
  submitted by the Honorable Sheila Jackson Lee..................   144
Section 703 of HR 750, ``Recruitment of American Workers in the 
  Save America Comprehensive Immigration Act of 2007'' submitted 
  by the Honorable Sheila Jackson Lee............................   154
``The Impact of New Immigrants on Young Native-Born Workers, 
  2000-2005'' by Andrew Sum, Paul Harrington, and Ishwar 
  Khatiwada of the Center for Immigration Studies, September 
  2006, submitted by the Honorable Elton Gallegly................   157
``The Fiscal Costs of Low-Skill Households to the U.S. Taxpayer'' 
  by Robert Rector, Christine Kim, and Shanea Wilkins, Ph.D. of 
  The Heritage Foundation, submitted by the Honorable Steve King.   169


     U.S. ECONOMY, U.S. WORKERS, AND IMMIGRATION REFORM (CONTINUED)

                              ----------                              


                         WEDNESDAY, MAY 9, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Jackson Lee, Davis, 
Ellison, Conyers, King, Gallegly, Goodlatte, Lungren, Gohmert, 
and Smith.
    Staff present: Ur Mendoza Jaddou, Chief Counsel; George 
Fishman, Minority Counsel; Andrea Loving, Minority Counsel; and 
Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    This is the continuation of our hearing from last Thursday, 
scheduled at the request of our minority Members pursuant to 
Clause 2(j)(1) of House Rule XI to provide additional 
perspectives on the topic of the hearing. Our witnesses today 
have been chosen by the minority, and we look forward to 
hearing their testimony.
    [The opening statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    Pursuant to House Rule XI clause (2)(j)(1), the minority in the 
Subcommittee is entitled to,

        [U]pon request to the chairman by a majority of them before the 
        completion of the hearing, to call witnesses selected by the 
        minority to testify with respect to that measure or matter 
        during at least one day of hearing thereon.

    Last week, the Subcommittee held a hearing on immigrants and the 
nation's economy. At the request of the Ranking Member and a majority 
of the minority on this Subcommittee, today the Immigration 
Subcommittee is holding a minority hearing to continue the discussion 
on the effects of immigrants on the nation's economy.
    As I stated last week, some have raised concern that immigrant 
workers undermine the welfare of native-born workers by reducing wages 
and raising unemployment levels. Applying basic rules of supply and 
demand, this argument appears convincing - the more workers there are, 
the more competition there is for jobs, and hence a downward pressure 
on wages and fewer available jobs.
    However, a majority of experts on this issue, as we heard in our 
hearing last week, have explained that this basic supply and demand 
argument is too simplistic to capture reality. The majority of the 
scholarship on this topic has indicated that simple economic arguments 
of supply and demand fail to reflect the economic complexities of the 
real world of immigration. As we learned last week, immigrants don't 
just fill jobs; they also create them in various ways, thereby 
increasing demand for native-born workers and actually increasing their 
wages throughout most of the economy.
    Our witnesses last week explained that there is some downward 
effect on wages at some levels. However, the weight of the scholarship 
shows that this effect is much smaller than some have argued, even as 
small 1.1%.
    Now we turn our attention to the minority witnesses to provide 
their perspective.

    Ms. Lofgren. The Chair now recognizes the Ranking minority 
Member, Steve King, for his opening statement.
    Mr. King. Thank you, Madam Chair.
    This hearing was called because the minority was denied a 
witness at last Thursday's hearing on the U.S. Economy, U.S. 
Workers and Immigration Reform. We invited two private-sector 
witnesses, and the majority publicized the witness list naming 
those witnesses. However, 2 days before the hearing, the 
majority dictated that one minority witness must be a 
Government witness.
    The reality is that no Administration witness is going to 
testify to anything other than the Administration's view on 
immigration reform. In fact, I had a question that I was going 
to ask them, which was: Can you give us your personal opinion? 
The answer would have been no, and I decided not to embarrass 
them.
    So that leaves those who disagree with the Administration's 
position with a tremendously small or nonexistent pool of 
Government witnesses, and the 1 day we had to try to find 
another witness made finding an available, out-of-town 
Government witness even more difficult.
    So, after several attempts to resolve the situation through 
discussions with the majority, we were forced to disinvite one 
of the minority witnesses. And pursuant to House Rule XI, 
clause 2(j)(1), we requested a minority day of hearing.
    Our first thought in seeking witnesses for this minority 
day of hearing was to give Mr. T. Willard Fair the opportunity 
to respond to the attacks leveled by Mr. Wade Henderson, a 
majority witness at last Thursday's hearing. Mr. Fair will 
discuss the impact of immigration on African-American workers, 
and his views are shaped in part by his position as President 
and CEO of the Urban League of Greater Miami. So I am pleased 
that Mr. Fair is with us today.
    I am also pleased that Roy Beck, the Executive Director of 
NumbersUSA, is also here and that he is not holding against us 
the fact that we were forced to uninvite him last week.
    And finally, I am pleased that Dr. Steve Camarota, director 
of research at the Center for Immigration Studies, is here to 
give us an economist's view of the issue.
    The issue at hand is extremely important to the future of 
America. Importing millions of poorly educated foreign workers 
will not help our country. It will only hinder our growth.
    When employers hire foreign workers who will work for less 
than American workers, Americans lose jobs. Currently, there 
are 69 million Americans who are working age who are simply not 
in the workforce and 6.9 million working illegal immigrants. We 
would only have to recruit one out of 10 Americans that are not 
in the workforce in order to replace the illegal labor in 
America.
    The open-borders lobby's argument is that those people do 
not live in the place where the jobs are, but they forget that 
the illegal immigrants did not either.
    So I would point out that at last Thursday's hearing, some 
of the witnesses argued that adding more people to the 
workforce helps raise wages, but that notion is contrary to the 
law of supply and demand. The bottom line is that when more 
people are willing to work for low wages, the wages go down. 
Any employer can tell you that.
    That is why employers want amnesty for illegal aliens and a 
massive new guest worker program to import the world's poor 
because they can profit from that, and the American economy is 
like a ship with 300 million passengers and crew. The 
passengers do not contribute to the efficiency of the ship. It 
is the crew that does that. If we keep taking on more 
passengers and untrained crew, instead of putting more of our 
passengers to work, ultimately, this great ship, America, will 
sink, and it will sink into the depths of the Third World.
    I also point out that we have had testimony here from 
Robert Rector of The Heritage Foundation in a very definitive 
study that identifies a net loss to the taxpayer of $22,449 a 
year for every household on average that is headed by a high 
school dropout, and there has been no response to those 
statistics and that data. The response has been great silence.
    So I appreciate the witnesses being in here, and I 
appreciate your testimony before this Committee, and I am 
hopeful that if there is not going to be another number that is 
going to be offered so that it can be scrutinized by our side 
of this argument that the concession will be made that you 
gentlemen are right.
    I thank you, Madam Chair, and I yield back the balance of 
my time. I look forward to the testimony.
    Ms. Lofgren. We are pleased to be joined by the Chairman of 
the full Judiciary Committee today, and I would now recognize 
Chairman Conyers for any opening remarks that he may wish to 
make.
    Mr. Conyers. Thank you, Chairwoman Lofgren and Steve King 
and Mr. Gohmert and Mr. Smith and Mr. Lungren, our former 
attorney general from California.
    I consider these hearings very, very important. Why? 
Because what we are trying to do now is to correct some 
problems that have happened across the years, and, of course, 
resolving old problems are a bit of a difficulty.
    Now I come out of the civil rights movement, and Mr. Fair, 
I understand, does as well. And what we have to examine, I say 
to the witnesses, is how we deal with the problem of a fair 
amnesty reformation and at the same time deal with the reality 
of minority unemployment in this country, of which there is way 
more than is reported. It is a very highly underreported 
statistic.
    So can we do that? Can we do that without breaking up 
families? There is not a Member on the full Committee on 
Judiciary that does not want to promote family values and 
keeping families together. To do that within reason and bounds 
is a legitimate objective of the immigration reform package 
that we are at the present moment putting together.
    We do not have a bill, so everything you say here is being 
examined for whether it can be included in what our final work 
product is. So what we are trying to say is that we need a re-
examination of full employment. We would need full employment 
if there was not an immigration crisis.
    I was one of those--and I was so proud that Coretta Scott 
King joined with me when we passed the Full Employment and 
Balance Growth Act, which was trying to deal with the reality.
    Now I would like to see a situation where there is not some 
gross surplus of low-wage workers, unskilled workers, and the 
number of jobs available. What I would like to see is a 
reasonable distribution that I have not found anywhere in my 
train of logic to want to have a pool of unskilled workers, be 
they immigrant or be they native American. I want full 
employment as a legitimate goal, and for all of those witnesses 
here today that can help me, this would be very, very 
important.
    Keep in mind African-Americans and Latinos, as minority 
groups in America, have a strong common interest in fairness 
and equal opportunity, economically and politically. And as the 
Leadership Conference on Civil Rights noted, the traditional 
civil rights movement was instrumental in eliminating 
discriminatory immigration quotas in the 1960's, and that is 
why, to me, civil rights organizations and their leaders need 
to speak out on behalf of crafting a fair bill.
    Fairness undergirds my major approach to this huge problem 
that Chairman Lofgren and her Subcommittee have adjusted their 
sights to. They are holding more hearings than anybody else in 
the Committee and for good reason. There is a lot of work to be 
done, and we have to climb over a lot of misunderstandings that 
are out there.
    Thank you, Madam Chairman.
    Ms. Lofgren. Thank you, Chairman Conyers.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    A serious study of the immigration issue must include a thoughtful 
analysis of how foreign workers impact our native-born workers. We had 
such a hearing last week, and I am happy to hear from even more voices 
on this important issue.
    Indeed, I join Wade Henderson and the Leadership Conference for 
Civil Rights in applauding the fact that so many people and groups are 
now expressing concern for the state of Black America, and specifically 
for our unemployed and underemployed young men.
    We need to address these concerns without driving wedges among our 
communities. As Frederick Douglass stated in a prescient speech he gave 
in the wake of Emancipation, the question of immigration and race 
prerogative ``should be settled upon higher principles than those of a 
cold and selfish expediency.''
    We cannot simply condemn immigration reform as being either against 
African-Americans or a disguised form of amnesty. We cannot walk away 
from the hard work that the American people expect from us--to achieve 
comprehensive balanced immigration reform.
    We also cannot ignore the harsh realities that African-Americans 
have long faced in our Nation. We must continue to bring the Nation's 
attention to the long-lasting social and economic effects of slavery 
and segregation. These economic issues are the root cause of many 
critical issues in the African-American community today, such as 
education, healthcare and crime. We need to have a constructive 
dialogue on the role of slavery and racism in shaping present-day 
conditions in our community and American society.
    As highlighted in a prior hearing, studies show that black men born 
in the late 1960s were, by the end of the 1990s, more likely to have 
prison records than either military records or college degrees. Even 
worse, those who were high-school dropouts had a nearly 60 percent 
chance of having served time in prison.
    Nevertheless, the fact that African-Americans face challenges in 
our labor markets does not necessarily mean that immigrants are the 
cause of those problems. The scholarship on this issue is inconclusive, 
and studies that fail to take incarceration rates and education into 
account are of questionable value.
    Even assuming for the moment that immigration does hurt some poor 
American communities--especially African-American communities and 
established Latino communities--what can we do to protect them?
    Mr. Fair, in his written testimony, suggests that less immigration 
is more likely to help a young black man succeed as a carpenter or an 
ex-convict reintegrate into society. I believe, instead, these young 
men would have a better chance to succeed in an environment that 
promotes: a full employment policy; skills training; education; and 
transitional programs such as the Second Chance Act.
    Rather than simply closing the door to immigration and hoping that 
things will get better for African-Americans, we should instead be 
asking ourselves what can be done to stimulate job growth and improve 
opportunities in Black communities across the Nation.
    As one of our witnesses is from Miami, it is appropriate for us to 
note economist David Card's study on the impact of the 125,000 Cuban 
nationals who came to the United States during the Mariel boatlift. 
Although Miami's labor force increased by some 7 percent within a 
relatively short period of time, Mr. Card found that the Mariel 
immigration had virtually no impact on the wages or unemployment rates 
of less-skilled workers.
    We should also keep in mind that African Americans and Latinos, as 
minority groups in America, share a strong common interest in fairness 
and equal opportunity. As the Leadership Conference on Civil Rights has 
noted, the traditional civil rights movement was instrumental in 
eliminating discriminatory immigration quotas in the 1960s. This is why 
leading civil rights organizations have continued to speak out on 
behalf of immigrants' rights since then. Balanced immigration reform 
should be premised on protections for native-born workers such as 
unemployment thresholds which limit temporary workers. It also should 
provide protections for immigrants such as access to unions, wage 
protections, and programs that do not create a permanent underclass. 
And, as I mentioned earlier, we need a full employment policy with an 
educational base and good wages. We must move away from the rhetoric of 
``impossibility'' or ``amnesty,'' and achieve a lasting solution to 
these problems.

    Ms. Lofgren. I now would recognize the Ranking Member of 
the full Committee, Mr. Smith, for any opening statement he 
would like to make.
    Mr. Smith. Thank you, Madam Chair.
    This is an unusual but necessary hearing, as Mr. King 
pointed out, but I certainly do want to agree with the Chairman 
of the full Committee and the comments that he just made. He 
said that a surplus of unskilled workers basically does no one 
any good, whether they be immigrants or native workers, and I 
just absolutely concur with that statement, and I share his 
concerns that a surplus might well lead to greater unemployment 
among American workers.
    Madam Chair, immigration has become the most complex and 
sensitive subject, I think, Congress faces today. It affects 
our economy, our culture, and our future. So it is critical 
that we have accurate facts if we are to properly address 
immigration reform. The late Carl Sagan said, ``Better the hard 
truth than the comforting fantasy.''
    This Subcommittee has held hearings on a number of 
subjects. Regardless of the topic, one question always comes to 
my mind: Who will stand up for the American worker? And the 
answer is: We will, and we must.
    Virtually all credible studies show that competition from 
cheap foreign labor displaces American workers, including legal 
immigrants, or depresses their wages. The Center for 
Immigration Studies found that low-skilled workers lose an 
average of $1,800 a year because of competition from illegal 
immigrants for their jobs. That is a huge economic hit.
    A study by Harvard Economist George Borjas shows that cheap 
immigrant labor has reduced the wages of American workers 
performing low-skilled jobs by over 7 percent, and it is 
instructive that the highest unemployment rates among Americans 
are in the construction and service industries to occupations 
with a high number of illegal immigrant workers.
    The nearly 70 million Americans, who are unemployed or have 
given up looking for jobs, have a right to those jobs. We must 
put the interest of American workers ahead of foreign workers.
    Today, we will hear testimony that all Americans are hurt 
by cheap foreign labor. Almost 20 percent of all Black 
Americans and 40 percent of Hispanics do not have a high school 
degree. These low-skilled legal workers are the ones who 
disproportionately must compete with foreign workers. They are 
the real victims of America's failed immigration policy. For 
proof, we have only to look at the effects of recent Federal 
immigration worksite enforcement actions.
    After last year's worksite enforcement by the Bureau of 
Immigration and Customs Enforcement, Georgia's Crider lost over 
600 illegal workers. Well, what happened? The Wall Street 
Journal reported, ``For the first time since significant 
numbers of Latinos began arriving in Stillmore, the plant's 
processing lines were made up predominantly of African-
Americans,'' and Crider continues to fill positions with legal 
workers.
    Is that the expiration of my time, Madam Chair?
    Ms. Lofgren. I thought it was, but I think we messed up on 
the lights. So why don't you----
    Mr. Smith. Okay. I would be glad to take another 5 minutes, 
Madam Chair. [Laughter.]
    Ms. Lofgren. If you could conclude in 2 or 3, that would be 
perfect.
    Mr. Smith. Thank you.
    All right. Let me repeat that last phrase. The Wall Street 
Journal reported what happened. ``For the first time since 
significant numbers of Latinos began arriving in Stillmore in 
the late 1990's, the plant's processing lines were made up 
predominantly of African-Americans.'' Crider continues to fill 
positions with legal workers.
    Some say there are jobs Americans will not do, but that 
demeans Americans who do work in every occupation. Any honest 
job is a worthy job. If we had to pay a few cents more for a 
head of lettuce or chicken at the grocery store in order to 
protect American jobs, we should be willing to do so. The 
American worker must come first.
    Madam Chair, since I have another minute to go, let me 
mention another subject today, and I cannot avoid mentioning it 
because of what happened yesterday.
    Six individuals were arrested on their way to Fort Dix. 
They were terrorists and they intended to ``kill as many 
soldiers as possible,'' and they had the assault weapons to do 
so. As I read it, three of the six individuals were in the 
country illegally. To my knowledge, based upon news reports, 
they did not have any criminal backgrounds.
    These are the individuals who under the Administration and 
the Senate bill that are being considered would have become 
legalized. They might have become guest workers, or they might 
eventually have become citizens.
    So what happened yesterday certainly should be a wakeup 
call. It certainly should have a dramatic impact on our 
immigration debate and, I hope, will certainly slow down the 
process of any consideration of amnesty or legalization for 
people who are in the country illegally.
    Thank you, Madam Chair, and I will yield back the balance 
of my time.
    Ms. Lofgren. Thank you.
    In view of the schedule and mindful that our witnesses are 
waiting, we will ask other Members to submit their opening 
statements for the record.
    Without objection, the Chair is authorized to declare a 
recess of the hearing at any time.
    Without objection, all opening statements will be placed in 
the record.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Today marks the eighth hearing in a series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortfalls of the 1986 and 1996 immigration reforms, the 
difficulties employers face with employment verification and ways to 
improve the employment verification system. On Tuesday May 1, 2007 we 
explored the point system that the United Kingdom, Canada, Australia, 
and New Zealand utilize, and on May 3, 2007 the focus of the discussion 
was on the U.S. economy, U.S. workers and immigration reform. Yesterday 
May 8, 2007 we took a look at another controversial aspect of the 
immigration debate, family based immigration. Today's hearing is a 
continuation of the hearing we held on May 3, 2007.
    At that hearing this past Thursday, May 3, 2007 the tone of the 
conversation turned ``ugly'' for lack of a better word. I remind my 
colleagues that these series of hearings that began at Ellis Island and 
will conclude at the end of this session are about finding the truth, 
dispelling the myths, and arriving at a consensus that is in the 
interest of first the American worker, the border, and our economy.
    Working under the assumption that immigrants are a detriment and a 
strain on our economy, and further a detriment to the economic 
opportunities of young low-skilled blacks we invited a panel of experts 
to discuss this very issue.
    Dr. Orzsag mentioned that more low skill workers mean more high 
skilled workers and low skill labor creates the need for more jobs in 
general. For example an attorney or a doctor may not have the time to 
mow his lawn, do his own dry cleaning, or make his own lunch. On the 
other hand a low skilled worker laboring on a farm means that there 
will be an urgent need to hire a driver to deliver the produce to the 
grocery store, and another individual who stocks the product in the 
grocery store. Likewise common sense dictates that the same groups of 
workers make obvious contributions to our economy when they buy 
groceries, clothes, gas, and other living essentials.
    With regards to this ``perception'' that illegal immigration is 
having a particularly adverse effect on the job opportunities of young 
black men allow me to reiterate the following. That argument is in part 
a disingenuous argument. It does not take into account the fact that 
since the passage of the Civil Rights Act of 1964 our nation has seen a 
growing black middle class. Quite frankly, I agree with Wade Henderson. 
I will not allow ignorance and divisiveness into this discussion about 
immigration.
    However, I understand the concerns of gentleman like T. Willard 
Fair, and I address these issues in my immigration legislation the SAVE 
America Comprehensive Immigration Act of 2007.
    Let me take a brief moment to describe how my legislation, the SAVE 
America Comprehensive Immigration Act of 2007 addresses this shortage 
of workers. Section 703 of the SAVE Act, entitled ``Recruitment of 
American Workers,'' mandates the following.
    First of all any employer that files a petition on behalf of a 
foreign born employee will have to file an affidavit that illustrates 
their efforts to recruit a lawful permanent resident (LPR) or a United 
States Citizen (USC), and an emphasis will be placed on attempts to 
recruit employees from minority communities. Recruitment efforts in 
minority communities can include advertisements in local newspapers in 
the labor market where these workers patronize for at least 5 days, 
advertisements in public transportation systems, and recruitment 
activities in secondary schools, recreation centers, community centers, 
and other places throughout the communities within 50 miles of the job 
site that serve minorities.
    The SAVE Act also mandates a 10% surcharge on all fees collected 
for petitions to accord employment based status. These funds would then 
be used to create an employment training program with the purpose of 
increasing the number of available LPR's and USC's in the occupations 
that are the subjects of these petitions. Likewise, 50% of the funds 
will be used to train workers in rural and inner city areas.
    Finally a portion of the proceeds will also be used to establish an 
``Office to Preserve American Jobs'' at the Department of Labor. The 
purpose of this office is to establish policies that encourage American 
employers to hire American workers before resorting to foreign workers.
    In conclusion I say to this distinguished panel that those of us in 
the majority put the American people first, and we will continue to do 
so. The notion that we would do otherwise is simply not true.

    [The prepared statement of Mr. Gallegly follows:]
Prepared Statement of the Honorable Elton Gallegly, a Representative in 
  Congress from the State of California, and Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    Mr. King, thank you for holding this hearing. It is important that 
we have a serious discussion about how illegal immigration has affected 
American workers.
    It defies common sense to argue that the presence of at least 12 
million illegal workers has not negatively affected the unemployment 
rate, wages, and working conditions for legal American workers.
    A study by the Center for Immigration Studies found that between 
2000 and 2005, the number of new male immigrant workers increased by 
1.9 million. At the same time, the number of employed unskilled 
American workers declined by 1.7 million.
    The conclusion is inescapable.
    The problem will be even worse if we grant amnesty to illegal 
workers. If every one of the estimated 12 million illegal immigrants 
sponsors two (2) additional immigrants each, which is a very 
conservative number--the U.S. will have at least 24 million new 
immigrants coming to this country under amnesty over the next 10 years. 
That number will not include those who will continue to violate the law 
and cross our borders, figuring that eventually Congress will grant 
them yet another amnesty.
    The new immigrants will not just be competing for jobs, but for 
housing, health care, education, and other services. It defies belief 
that an additional 24 million people--again, in addition to the 12 
million already here--many of whom will not speak English and will have 
few jobs skills, will not have a serious, negative impact on our 
economy, our workforce, our schools, our hospitals, and our 
communities.
    In addition, there is no doubt that adding a minimum of 24 million 
people to our population will have negative consequences for our 
environment, our traffic problems, and our overall quality of life.
    Mr. King, I would like to place a copy of the Center for 
Immigration Studies report I mentioned, The Impact of New Immigrants on 
Young Native-Born Workers, 2000-2005, into the record.
    Thank you again for holding this hearing. I look forward to hearing 
from our witnesses.
    I yield back the balance of my time.

    Ms. Lofgren. We have three witnesses before us today.
    First, we have Roy Beck, the founder and Executive Director 
of NumbersUSA Education and Research Foundation. Mr. Beck is 
author of the book, The Case Against Immigration. He is a 
graduate of the University of Missouri School of Journalism.
    Next, we have Steven A. Camarota, Director of Research at 
the Center for Immigration Studies in Washington, D.C. He holds 
a Ph.D. from the University of Virginia in public policy 
analysis and a master's degree in political science from the 
University of Pennsylvania.
    Finally, we will hear from Mr. T. Willard Fair, President 
and Chief Executive Officer of the Urban League of Greater 
Miami. Mr. Fair has served as an adjunct professor at the 
Atlanta University School of Social Work, Bethune-Cookman 
College, Florida International University and the National 
Urban League's Whitney M. Young, Jr. Center for Urban 
Leadership. He earned his B.A. in sociology from Johnson C. 
Smith University and an M.S.W from the Atlanta University 
School of Social Work.
    Your written testimonies will be made part of the record in 
their entirety.
    I think you saw the little light system we have here. Each 
of you will be asked to summarize your written testimony in 
about 5 minutes. When the yellow light goes on, it means you 
have a minute left, and it is always surprising when you are a 
witness because the time really does fly.
    When the red light goes on, it means your time is up, as 
surprising as that may be, and we would ask you to try and 
conclude. We do not have a heavy gavel, but we would ask if you 
would conclude so we can get to the next witness and then to 
the questions.
    So, if we can begin, if we could start, Mr. Fair.

           TESTIMONY OF T. WILLARD FAIR, PRESIDENT, 
                       MIAMI URBAN LEAGUE

    Mr. Fair. Thank you, and good morning. To members of the 
panel, it is a pleasure for me to have the opportunity to speak 
to you this morning on an issue that is important not only to 
me, but to my constituency group in Miami.
    For the last 40-plus years, I have been attempting to make 
sure that young Black men in Liberty City have the tools that 
they need in order to be productive citizens in Miami-Dade 
County. We have worked at that, and I suggest to you that the 
status of young Black males around this country is of such a 
significant nature of deterioration that all of us should be 
concerned.
    We know, based on everything that we have read by all of 
the experts, that the issues that face them, that keep them 
from becoming productive citizens are many and complex, from 
family composition to incarceration to attitudes to beliefs to 
the last vestiges of racism being practiced. Those things 
surround them on a day-to-day basis.
    I would not suggest to you that those things are the only 
things, nor would I suggest to you that illegal immigration or 
legal immigration is a primary reason for the creation of those 
things, but when we have the discussion about the variables 
that make them unable to achieve their highest aspirations, we 
never talk about the impact of mass immigration on that, and I 
suggest to you that Miami is the best laboratory for you to 
look at as we talk about the impact of legal versus illegal 
immigration on the ability of Black Americans to ascend to the 
heights of their aspirations.
    When I came to Miami 40-plus years ago, there were certain 
things in place that gave you some understanding about the 
importance of Black Americans to the economy, to the vitality 
of that city. One of my favorite observations is where did they 
go because when I came to Miami, all of the hotel, motel, 
restaurant jobs in Miami were occupied by African-Americans. 
Today, that is flipped. That is neither good nor bad nor is 
that condemning anybody who has the jobs, but the issue becomes 
what happened to all of those people who had those jobs?
    When I came to Miami 40 years ago, the construction 
industry primarily was made up of laborers who came from 
Liberty City. It is not by accident, but should have been 
predicted that the first persons that fell off the high 
scaffolds in Miami involved in construction were not people 
from Liberty City, but were Haitians, because, once again, 
those jobs that used to be held by African-Americans are now 
held by others, legal or illegal. The numbers have impacted 
adversely on the ability of Blacks in Miami to get jobs.
    This does not mean that one wants to blame immigration, but 
one certainly has to understand the effect of mass immigration 
on those set of circumstances. When one digs down deep into 
that whole process, one then begins to understand that if you 
talk about a form of amnesty that is going to put an additional 
12-million-plus people into that system, I mean, you create 
other sets of problems that are already in place.
    So, when we begin to talk about the issue and its impact on 
Black America, academicians, researchers all have demonstrated 
very clearly by their research that it does occur. What 
disturbs me, for example, is we talk to economists, we talk 
about supply and demand, and we know that it is going to impact 
on us adversely, and finally, we may admit that it does, but 
when we talk about that it does, we talk about it impacts 
modestly. Well modestly may mean one thing to you as an 
academician, but if it is you in reality, then it is 
significant. It is no longer modest.
    So all of the experts agree that illegal versus legal, 
legal versus illegal has an impact on the ability of African-
Americans to get jobs. But we began to switch it off and say 
that it does not.
    We also have this whole notion that we can allow certain 
people to come in to the system, create jobs, and as they take 
over certain jobs, they will then, by virtue of their numbers, 
create other jobs in the industry. Well, that does not work in 
Miami because what happens is that if you take over all of the 
jobs picking lettuce, the notion is that you are able to pick 
lettuce cheaper and, therefore, you can get it to the market 
faster. You get it to the market faster. Therefore, you can get 
more people to buy it. Then what happens is that----
    Ms. Lofgren. Mr. Fair, your red light is on. If you----
    Mr. Fair. My red light?
    Ms. Lofgren. Yes. If you could just, you know, wrap up, I 
do not want to cut you off in the middle of your sentence.
    Mr. Fair. What happens then is that if those who are in 
place to get the new jobs are not people that look like me, 
then it works. But the lettuce pickers then become the 
cashiers, then become the foremen, then become the truck 
drivers, and once again, we are locked out of an industry.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Fair follows:]
                 Prepared Statement of T. Willard Fair
    Good morning and thank you for the opportunity to address this 
panel.
    I have devoted much of my adult life to one of the most important 
challenges facing our country: How to help young black men build 
constructive lives as fathers and breadwinners. The size of the problem 
was outlined in a recent book published by the National Urban League 
entitled The State of Black America 2007: Portrait of the Black Male--
black men are much more likely to be unemployed than white men, more 
likely to be dropouts, in prison, in poverty, or dead.
    There are many reasons for grim statistics like this, including the 
continuing effects of slavery and Jim Crow; the shift in the economy 
away from manufacturing; broken schools in our big cities; the 
glorification of self-destructive behavior by popular culture.
    But one factor is too often ignored--mass immigration.
    There was little immigration when the struggle for civil rights 
began to achieve success in the 1950s and '60s. In fact, the 1965 
immigration law that started today's mass immigration was itself seen 
as a civil rights measure, intended to clean out rules that favored 
immigrants from some countries over others. Sen. Edward Kennedy, then, 
as now, chairman of the Senate immigration subcommittee, said ``The 
bill will not flood our cities with immigrants. . . . It will not cause 
American workers to lose their jobs.''
    So much for predictions.
    Since 1965, nearly 30 million legal immigrants have come here, plus 
millions of illegal aliens. The results have been devastating for those 
Americans--black or white--who compete for jobs with this immigrant 
tide. George Borjas of Harvard has shown that immigration has cut the 
wages of American men without a high school degree by $1,800 a year. 
Economists at Northeastern University have found that businesses are 
substituting immigrants for young American workers, especially for 
young black men. In fact, scholars estimate that immigration is the 
reason for one-third of the drop in employment among black men, and 
even some of the increase in incarceration.
    Of course, none of that means that individual immigrants--or 
particular immigrant groups--can be blamed for the difficulties facing 
black men. Being pro-Me should never make me anti-You. Nor can we use 
immigration as a crutch, blaming it for all our problems. The reality 
is that less-educated black men in America today have a variety of 
problems--high rates of crime and drug use, for example, and poor 
performance at work and school--that are caused by factors unrelated to 
level of immigration.
    But if cutting immigration and enforcing the law wouldn't be a 
cure-all, it sure would make my job easier. Take employment--
immigration isn't the whole reason for the drop in employment of black 
men; it's not even half the reason. But it is the largest single 
reason, and it's something we can fix relatively easily.
    Think about it this way: If there's a young black man in Liberty 
City, where I live, who's good with his hands and wants to become a 
carpenter, which is more likely to help him achieve that goal--amnesty 
and more immigration, or enforcement and less immigration?
    Which is more likely to help an ex-convict or recovering addict get 
hired at an entry-level job and start the climb back to a decent life--
amnesty and more immigration, or enforcement and less immigration?
    Which is more likely to persuade a teenager in the inner city to 
reject the lure of gang life and instead stick with honest employment--
amnesty and more immigration, or enforcement and less immigration?
    And it's not just a matter of jobs. Whatever your views on 
government social programs, everyone can agree that resources are not 
infinite--there's only so much social spending to go around. And since 
immigrants have relatively low skills and low incomes, they use a lot 
of social services and pay little in taxes, cutting into the spending 
on America's own poor. The Center for Immigration Studies estimates 
that illegal aliens alone cost federal taxpayers $10 billion more a 
year in services than they pay in taxes--that's $10 billion that's not 
being spent on disadvantaged Americans, not counting the much larger 
deficits at the state and local level, where most social services are 
provided.
    Likewise with the schools. This is an issue close to my heart, 
since I co-founded Florida's first charter school and was recently 
confirmed as chairman of the statewide Board of Education. We must 
offer the best education possible to all our children, for their own 
good and for the good of our country. But as budgets have tightened, 
school enrollment has surged, and all of the growth in the nation's 
school-age population--100 percent--comes from immigrant families. This 
surge in enrolment has led to school overcrowding and has diverted 
resources that would otherwise have been devoted to at-risk students.
    Solutions to the challenges facing black Americans have to come 
from both private efforts and government initiative--but regardless of 
the specific approach, flooding the job market and overwhelming the 
public schools and other government services undermines all our 
efforts. The interests of black Americans are clear: No amnesty, no 
guestworkers, enforce the immigration law.

    Ms. Lofgren. Thank you.
    Mr. Beck, your 5 minutes are beginning.

          TESTIMONY OF ROY BECK, DIRECTOR, NumbersUSA

    Mr. Beck. Madam Chairwoman and Mr. Chairman, Ranking 
Members King and Smith, and others Members of the Subcommittee, 
thank you for this opportunity to talk about this subject, 
which was the chief topic, I believe, of the bipartisan U.S. 
Commission on Immigration Reform in the 1990's chaired by the 
late Barbara Jordan.
    I was pleased that Chairman Conyers brought up this key 
principle of immigration policy that has fairness to it, and I 
believe that that was one of the chief principles of the 
bipartisan commission. In fact, a quote from the Commission's 
study said that immigration policy is needed so that ``it helps 
mitigate potential negative impacts, particularly on 
disadvantaged U.S. workers.''
    I am pleased to talk about this because I helped found 
NumbersUSA in 1997, I should say, to educate about and to 
advocate for the recommendations of the Jordan Commission. The 
Jordan Commission could find no rational justification to meet 
emerging labor needs by importing large quantities of foreign 
workers. Now this is after several years of study.
    Regrettably, Congress only dealt with a few recommendations 
about illegal immigration, but put off almost all the 
recommendations that the Jordan Commission had about protecting 
the American worker, and that is what they did. They put it 
off. Many of you were here. You know Congress put it off and it 
has not taken it back out.
    The principle of the Commission was that immigration policy 
should never be allowed to reduce the wages, working conditions 
or the opportunities of American workers, and those 
recommendations of about a decade ago were that this country 
should dramatically reduce legal immigration, that is bring in 
fewer of these legal foreign workers that are impacting the 
people that Mr. Fair is talking about trying to help, the 
American workers, said that illegal immigration should be 
substantially reduced by eliminating the jobs magnet, illegal 
foreign workers in this country should be removed from the 
labor markets and caused to return to their home countries, and 
that large-scale foreign worker programs should be avoided.
    It seems to me the major question before this Subcommittee, 
before this Congress, is: Why not go ahead and pass the rest of 
the Jordan recommendations on immigration to protect the 
American worker? Have the conditions of our vulnerable American 
workers improved so dramatically since then that that is no 
longer valid? And I think the answer is, no, they have actually 
decreased.
    I want to use the remainder of my oral comments to touch on 
one aspect of the Jordan Commission recommendations which was 
about reinvigorating domestic recruitment channels. Now we can 
take an example right here in the Chesapeake region, especially 
over on the Atlantic Coast.
    Every year, you have all of these tourism industry 
businesses up and down the coast saying down in Congress, ``We 
have to have more visas for foreign workers,'' and yet in just 
Virginia, Maryland, D.C. alone, there are 2 million working-age 
native-born citizens who are not working right now.
    Many of these businesses have better procurement channels, 
labor recruitment channels with Poland than they do with the 
Potomac, even though the Potomac has tens of thousands of older 
teens and young adults who are wasting away early years of 
their lives in nonemployment, instead of getting the experience 
and the dignity of having the entry-level, the stepping-stone 
jobs that would lead them to lives of middle-class financial 
security later on.
    The Jordan Commission spoke to this problem. They said the 
availability of foreign workers may create a dependency on 
them. We see that everywhere. It has been well-documented that 
reliance on foreign workers in low-wage, low-skill occupations 
creates disincentives for employers to improve pay and working 
conditions for American workers.
    When employers fail to recruit domestically or pay wages 
that meet industrywide standards, the resulting dependence, 
even on professionals, may adversely affect both U.S. workers 
in that occupation and U.S. companies that adhere to 
appropriate labor standards.
    We have 23 million native-born Americans, 18 to 64, who are 
less educated, no more than a high school degree, who do not 
have jobs right now--23 million. With this kind of situation, 
with the kind of poverty you read in the Post yesterday, the 
story about Mr. Edwards and his concern about the 37 million 
people in poverty, you think what would it be like if the 
American business community created domestic recruitment 
channels into these big pockets of poverty? How would that 
change the suffering that we have at the lower levels of this 
country?
    I would say that it is time to look at those Jordan 
Commission recommendations, maybe go further. I would say why 
recruit through immigration any low-skilled workers to deal 
with those, and my final sentence, Madam Chairwoman, is that 
the evidence shows that we do not have a shortage of workers. 
We have a shortage of domestic recruitment channels.
    Thank you.
    [The prepared statement of Mr. Beck follows:]
                     Prepared Statement of Roy Beck
    Madame Chairwoman, Ranking Member King, Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to talk about immigration policy and its effect on American workers, 
one of the two subjects that has dominated my attention as an author 
and journalist for the past two decades.
    The topic of this hearing was addressed through years of 
exploration by the bi-partisan U.S. Commission on Immigration Reform, 
chaired by the late Barbara Jordan, and including other luminaries such 
as Michael Teitelbaum and the late Richard Estrada. As it happened, I 
was commissioned by W.W. Norton & Co. during precisely that mid-1990s 
period to research and write a book on this same topic. The Jordan 
Commission began issuing its reports just as I had sent my final 
manuscripts to New York. I was surprised and pleased to see the 
Commission making many of the major recommendations that I had included 
in my own book's conclusions, and for largely the same reasons, 
including the Commission's principle that immigration policy needed to:

        ``. . . help mitigate potential negative impacts, particularly 
        on disadvantaged U.S. workers.''

    For the last decade, I have had the privilege of educating about 
those recommendations that came from the final act of public service of 
Barbara Jordan's long and illustrious career. Since 1997, I have been 
the executive director of NumbersUSA. It is a non-profit, non-partisan 
organization founded to educate about and carry out both the 
immigration recommendations of President Clinton's Council on 
Sustainable Development and the Jordan Commission recommendations that 
were designed to serve this country's national interests, and 
especially the interests of American workers and the households they 
support.
    Let's apply that standard to the question of what to do with 
illegal aliens who already are in our country. Is the approach that 
works best for the American worker also good for the economy? Or are 
the two goals in conflict?
          would we collapse if illegal workers self-deported?
    What if the officially estimated 7 million illegal foreign workers 
\1\ were caused to self-deport over the next decade primarily through 
the enactment and implementation of laws that denied them U.S. jobs?
---------------------------------------------------------------------------
    \1\ ``Size and Characteristics of the Unauthorized Migrant 
Population in the U.S.,'' Jeffrey S. Passel, Pew Hispanic Center.
---------------------------------------------------------------------------
    This is not an idle scenario. Most of the major corporate lobbies 
believe an aggressive enforcement of immigration laws, added to 
mandatory workplace verification of new hires, would lead to a 
substantial loss of workforce among businesses that have illegally 
hired a lot of foreign workers.
    That is why they insist on a legalization of the current illegal 
workforce--and adoption of a large new guest worker program--before 
they would consent to full enforcement of immigration laws.
    In the assessment of the corporate lobbies, an Attrition Through 
Enforcement policy depriving businesses of their illegal workers would 
threaten to collapse the economy, harming all workers and the national 
interest.
    But in the school of thought represented by the bi-partisan U.S. 
Commission on Immigration Reform, the removal of millions of illegal 
foreign workers would open up jobs and raise the wages for American 
workers while strengthening the economy and serving the national 
interest.
                 a giant pool of non-employed americans
    Would our economy suffer under an Attrition Through Enforcement & 
Self-Deportation scenario? Would American workers gain? Is it 
economically necessary to legalize the illegal workers to keep their 
employers in business?
    Let's look at some big numbers.
    About 142 million people in America (including 7 million illegal 
aliens) hold paying jobs. They are the producers, and they support 160 
million people in America who do not hold a paying job (including 5 
million illegal aliens).\2\
---------------------------------------------------------------------------
    \2\ March 2006 Current Population Survey
---------------------------------------------------------------------------
    That's 142 million supporting 160 million others.
    But among the 160 million ``non-producing'' dependents are 70 
million ``non-institutionalized'' people who have no job but who are of 
the same age as the Americans who are holding full-time and part-time 
jobs.
    Nearly 70 million people in the broad working age of 16-74 are 
either looking for a job and are considered unemployed, or have dropped 
out of the labor force altogether.\3\
---------------------------------------------------------------------------
    \3\ ``2006 annual Average Data, Employment status of the civilian 
noninstitutional population by age, sex and race,'' Bureau of Labor 
Statistics
---------------------------------------------------------------------------
    That would be 70 million Americans without a job from which to find 
only 7 million to replace the illegal foreign workers--that is 10 
available legal U.S. residents without a job for every one illegal 
foreign worker with a job.
    The ratio is still overwhelmingly in favor of finding American 
worker replacements even if you limit the pool to:

        <bullet>  Native-born Americans

        <bullet>  Aged 18-64

    Some 42 million Americans without a job meet those criteria.
    And of those, 23 million are ``less-educated'' Americans with no 
education beyond high school and, thus, the people who would be more 
likely to compete for most of those jobs. That would be three less-
educated Americans without a job for every illegal alien with a job.
    Sadly, this category of less-educated Americans has seen labor 
participation rates fall still lower in recent years, as foreign labor 
participation has risen.\4\ Opening up construction, food production, 
hospitality and other service jobs would provide immediate 
opportunities to reverse the native workforce dropout damage of recent 
years.
---------------------------------------------------------------------------
    \4\ ``Dropping Out: Immigrant Entry and Native Exit From the Labor 
market, 2000-2005,'' Steven A. Camarota, Center for Immigration Studies 
Backgrounder, March 2006
---------------------------------------------------------------------------
           illegal aliens do jobs americans won't wait to do
    Skeptics always raise the question about whether Americans would do 
the jobs that illegal aliens are doing. My response long has been that 
without the availability of foreign labor, employers eliminate jobs 
that aren't very productive and improve the conditions on the others 
until Americans take them.
    But many recent cases of workplace raids in meatpacking plants and 
factories in all regions of the country during the last few months have 
suggested that there are a lot of Americans who will take so-called 
foreigner work as is. In nearly every case, federal enforcement 
arrested or drove out large numbers of illegal foreign workers who were 
entirely replaced by American workers within a few weeks. In some 
cases, the employers offered somewhat better wages, benefits and 
working conditions to attract jobless Americans back into the labor 
market. But in other cases, Americans were willing to take the jobs 
under the exact circumstances the illegal worker held them.
    We may understand why when we look at the labor statistics a little 
closer. There may be 23 million less-educated Americans without a job 
as the potential pool for replacing the illegal aliens and many of whom 
will need some serious recruiting to get back into the job market. But 
there are around 7 million unemployed Americans who are looking for a 
job right now.
           society as a whole and all workers tend to benefit
    Why would we not seek to meet our labor needs out of this pool of 
non-employed Americans?
    From the standpoint of the non-employed Americans, why should they 
be denied the opportunity to be recruited to jobs that will provide 
them the satisfaction and dignity of being productive members of our 
society? The Americans who would benefit tend to be among the most 
vulnerable members of our national community, with the fewest 
resources.
    From the standpoint of taxpayers, why should working-age Americans 
dependent on taxpayer support not be encouraged to step up to the plate 
to take available jobs?
    The 142 million productive working people of this country already 
are supporting the physical and social infrastructure for those 70 
million non-employed working-age Americans. As any of those 70 million 
enter the labor force, there would be no need for more infrastructure 
to handle the housing, education, transportation, recreation, health 
care, etc. of they and their families (because they already are here). 
Furthermore, as they enter the workforce they would begin paying more 
taxes to take some of the tax burden off the 142 million.
    If all 12 million of the officially estimated illegal aliens were 
to leave the United States, and if 7 million Americans replaced the 7 
million illegal workers in their jobs, the ratio of ``producers'' to 
``non-producers'' would change from a 142 to 160 ratio to a 142 to 148 
ratio, with significant implications for tax/expense ratios of local 
and state governments.
    According to recent Heritage Foundation research, most households 
headed by illegal aliens are net tax drains of around $18,000 a year. 
When they leave the country, governments not only save the $18,000 per 
household, but they save on the formerly non-employed legal resident 
who has taken the illegal worker's job and is now paying more taxes. A 
less-educated legal resident worker will be a net tax drain, too, but 
since he/she already was a tax drain as a non-employed person, he/she 
should be less of a drain with a job.
        `attrition'--not `mass deportation'--provides transition
    I am not aware of any study or even claim that the Attrition 
Through Enforcement & Self-Deportation option could result in mass 
departures of millions a year. And no political leader is proposing 
mass deportations.
    Thus, the process of recruiting and training Americans to replace 7 
million illegal foreign workers as discussed above would take place 
over several years.
    The bad news for many of America's most vulnerable citizens is that 
it will be years before many of those jobs will be opened up by illegal 
aliens leaving the country. But the slow, steady process of emptying 
out the illegal population will provide employers plenty of time to 
adjust to a new era of the rule of law and establishing new channels of 
recruiting.
         'attrition' sets need for domestic recruiting patterns
    Many public and business leaders in local areas seem to sincerely 
believe that their region not only needs the illegal workers but must 
import new platoons of legal foreign workers each year.
    I recently spoke to a group of government and business leaders from 
western Colorado. One man said that many tourism and minerals 
businesses there depend on illegal labor now, have depended on it for a 
long time and would collapse if new flows of foreign labor were cut 
off. Through a combination of legal and illegal channels, according to 
this man, many businesses had become addicted to foreign labor.
    The Jordan Commission spoke to this problem:

        ``The availability of foreign workers may create a dependency 
        on them. It has been well-documented that reliance on foreign 
        workers in low-wage, low-skill occupations, such as farm work, 
        creates disincentives for employers to improve pay and working 
        conditions for American workers. When employers fail to recruit 
        domestically or to pay wages that meet industry-wide standards, 
        the resulting dependence--even on professionals--may adversely 
        affect both U.S. workers in that occupation and U.S. companies 
        that adhere to appropriate labor standards.\5\
---------------------------------------------------------------------------
    \5\ 1997 Report To Congress, ``Becoming An American: Immigration 
and Immigrant Policy,'' p. 79

    Here again are conclusions that foreign-worker patterns that are 
harmful to vulnerable Americans are also harmful to the economy as a 
whole. But just like individuals who are addicted to harmful drugs, 
businesses and local economies can wean themselves and change to 
healthier patterns of behavior.
    Does anybody really believe that the Colorado ski industry and 
mineral industry would shut down if the federal government shut off its 
supply of foreign workers?
    Instead of shutting down, one can be sure that these industries 
would aggressively create new channels of recruitment, perhaps into the 
relatively nearby population centers of Kansas City, Dallas, St. Louis 
and Chicago. Yes, at first, they might find it difficult to persuade 
non-employed people in those cities to pick up roots and move with 
their families to Colorado. But once the first individuals and families 
settle and like their conditions, they will send back word to old 
neighbors, friends and family--just like the foreign workers have been 
doing the last 30 years. Soon, domestic networking patterns will create 
flows of labor just like the international ones do today that result in 
entire villages in foreign countries emptying out to settle in one 
small area of the United States.
    There are currently around 750,000 non-employed native adults (age 
18-64) in Wisconsin, 900,000 in Missouri, 1.7 million in Illinois and 
3.1 million in Texas.\6\ While Attrition Through Enforcement is 
gradually weeding out illegal workers from the Colorado labor force, 
employers have huge pools of potential workers to be persuaded to try 
living in the beautiful Rocky Mountain state. And if those states don't 
prove responsive enough, there are always the 4 million non-employed 
native adults in California.
---------------------------------------------------------------------------
    \6\ March 2006 Current Population Survey
---------------------------------------------------------------------------
    Because international recruiting services and networks are so 
readily available and because the federal government provides and 
allows such large flows of foreign workers, many Colorado businesses 
are far more likely today to seek workers from Central America than 
from the Central Time Zone of the U.S.
    The Jordan Commission thought the federal government should 
encourage employers to re-discover domestic recruiting, calling on it 
to provide:

        ``. . . incentives or penalties to help ensure that employers 
        in the U.S. engage in serious recruitment of American workers 
        (for example, national rather than local recruitment where 
        appropriate) and contribute significantly to the training of 
        the domestic U.S. workforce.'' \7\
---------------------------------------------------------------------------
    \7\ 1997 Report To Congress, Becoming an American: Immigration and 
Immigrant Policy, U.S. Commission on Immigration Reform

    The same phenomenon can be seen so readily in the Chesapeake Bay 
region and especially along the Atlantic seashore where the tourism 
industry clamors for access to more and more foreign workers even 
though around 2 million American natives in Maryland, Virginia and 
Washington DC do not have a job. Included in that are more than a 
million in the area who are less-educated. To again go alliterative, 
some of the businesses demanding more work visas each year are far more 
focused on recruiting from Poland than from the Potomac where tens of 
thousands of older teens and young adults waste away years in non-
employment with little experience in entry-level and stepping-stone 
jobs that could form a pattern for later middle-class financial 
success.
    The gradual loss of illegal labor and a gradual reduction in new 
legal foreign labor would begin to create the virtuous economic circles 
of the World War One and World War Two eras in which industries had to 
recruit heavily from among poor, underemployed White and Blacks in the 
South and in the hill countries of our nation. When the wars shut off 
immigration, corporate America finally valued the least valued members 
of our national community and created great migrations of American 
natives across regions, leading toward the Great Economic Compression 
that turned the country into a dominantly middle class society.\8\
---------------------------------------------------------------------------
    \8\ The Case Against Immigration, Roy Beck (W.W. Norton)
---------------------------------------------------------------------------
        dead-end jobs become prized jobs with lower immigration
    The Great Economic Compression between 1929 and the early 1950s 
provides us a model for how reducing overall immigration numbers not 
only can stop the damage of immigration policy but greatly improve the 
lives of people in lower-skill jobs without them even having to change 
jobs.
    It was a time when the lower classes gained considerably on the 
middle classes and the middle classes gained on the upper classes. This 
emerging egalitarianism happened despite the coincidence with a Great 
Depression and a World War. Economic historians have attributed as much 
as one-third of this advancement of the working classes to the fact 
that immigration levels were low (well below 200,000 a year) and 
fertility had been low, producing an ever-tighter labor market.\9\
---------------------------------------------------------------------------
    \9\ American Inequality: A Macroeconomic History, Jeffrey 
Williamson and Peter H. Lindert (Academic Press)
---------------------------------------------------------------------------
    I stood face-to-face with this history during my research in Iowa 
meatpacking towns. I talked to old meatcutters who had begun their 
careers in the 1920s in disgusting, dangerous conditions at very low 
pay. For four decades, industry had used the easy supply of foreign 
labor to bust unions and keep meatcutting as one of the worst jobs in 
America.
    But after Congress put strict numerical caps on immigration in 
1924, the immigrants in the packing houses found that their labor was 
more and more valued in the tighter labor markets. Their unions grew 
stronger, pay rose and meatpacking became one of the safer jobs in 
America.
    I talked to numerous men who in the 1970s made enough money to 
support large families on one income and took nice vacations every 
year.
    But all of them had lost their jobs in the early to mid-1980s after 
Congress allowed the flow of foreign labor to rise from a quarter 
million a year in the 1960s to a half million a year in the 1980s (and 
then a million a year after 1990). One meatpacking company used the 
excess labor to bust the unions and slash wages and working conditions. 
Every other company then had to do the same or be run out of business 
(and several were). Now, meatcutting is back to being one of the worst 
jobs in America, populated mainly by immigrants and illegal aliens who 
will put up with the conditions just as long as it takes to find 
another job.
    I have no doubt that if Congress would enact the Jordan Commission 
recommendations, we would again see a beleaguered immigrant workforce 
in the meatpacking industry see their jobs turn into some of the best 
lower-skilled jobs in the country.
    But until then, we seem destined to continue a sad chain of 
occupations collapsing across the country. American drywallers are 
among the workers most under attack right now. But you can see it with 
all kinds of trades and services as the federal government's 
recklessness about immigration numbers ruins formerly middle-class 
occupations.
            jordan commission recommended less foreign labor
    The Jordon Commission in the 1990s could find no rational 
justification to meet emerging labor needs by importing large 
quantities of new foreign workers.
    Regrettably, Congress dealt with only some of the illegal 
immigration issues in 1996 and decided to set aside all of the Jordan 
Commission recommendations on legal immigration for consideration in a 
future year. That year has yet to arrive.
    I hope this hearing is a sign that the time has finally come when 
Congress and the President will effect policies that place the same 
kind of priority as did the bi-partisan Commission on ensuring that 
immigration never be allowed to reduce the wages, working conditions or 
opportunities of American workers.
    Based on that principle and research of the economy and labor 
markets in the 1990s, the Jordan Commission concluded that:

        <bullet>  Annual legal immigration numbers should be 
        dramatically reduced;

        <bullet>  Illegal immigration should be substantially curbed by 
        eliminating the jobs magnet;

        <bullet>  Illegal foreign workers already in the U.S. should be 
        removed from our labor markets and caused to return to their 
        home countries;

        <bullet>  Large-scale foreign guest worker programs should be 
        avoided;

        <bullet>  Legal immigration should be limited to spouses, minor 
        children, refugees and workers of very high skills not 
        possessed by American workers.

    It seems to me that the major question before this subcommittee is 
why it should not go ahead and approve the rest of the Commission's 
recommendations and also exercise its oversight and purse functions to 
force this Administration to implement the immigration laws already 
passed by Congress.
    Congress needs to consider if the conditions of the American worker 
and the economy have changed substantially since 1996 to suggest that a 
different direction from the Jordan Commission is in order.
    With the abysmal statistics on widening gaps in income distribution 
and the plight of both our native and our foreign-born workers at the 
lower rungs of the labor market, it appears that the recommendations of 
the Jordan Commission are even more in order today than when they were 
made a decade ago.

    Ms. Lofgren. Thank you.
    Dr. Camarota, your 5 minutes.

TESTIMONY OF STEVE CAMAROTA, Ph.D. DIRECTOR OF RESEARCH, CENTER 
                    FOR IMMIGRATION STUDIES

    Mr. Camarota. Madam Chairwoman and Mr. King and Members of 
the Committee, I would like to thank you for inviting me here 
to speak.
    I would like to begin my comments perhaps in a way by 
building just on what Mr. Beck said, by looking at it with 
data. There is no evidence of a labor shortage in this country, 
especially at the bottom, the labor market where immigrants are 
most concentrated. If there was, wages, benefits and employment 
should all be increasing fast. Actually, that is the opposite, 
the exact opposite, of what has been happening.
    The national unemployment rate of 4 or 5 percent is not 
even relevant to this debate for two reasons. First, 
immigration's effect on the labor market, especially illegal 
immigration, is mainly on less-educated, young Americans, 
wherein unemployment is much higher than 4 or 5 percent. 
Second, unemployment figures do not include those who have left 
the workforce entirely and given up looking for work.
    The share of adults without a high school education in the 
labor market--that is have a job or are looking for a job--fell 
from 59 to 56 percent between 2000 and 2006, and for those with 
only a high school degree--and these are adults again--it fell 
from 78 to 75 percent. Thus, these individuals, however, who 
are not in the labor market do not even show up in unemployment 
statistics.
    There is a huge supply of potential, less-educated natives 
in this country. There are 23 million adult natives, 18 to 64, 
with no education beyond high school who are either unemployed 
or not in the labor market. There are another 10 million 
teenagers, 15 to 17, who are unemployed or not in the labor 
market. There are 4 million college students unemployed or not 
in the labor market. And in each of these cases, the share of 
those individuals working has been declining, even after the 
economy turned up in 2003.
    Wages and benefits have generally stagnated or declined for 
the less-educated. Hourly wages for men with less than a high 
school education grew just 1 percent between 2000 and 2005. 
Hourly wages for men with only a high school degree grew by .5 
percent for that whole 5-year period. If there really was a 
labor shortage, wages and benefits and labor force 
participation should all be going up. It is not.
    Now there is a good deal of research showing that 
immigration has contributed to this problem. In a study 
published in 2003 by The Quarterly Journal of Economics, which 
is like the top journal in the field, the authors concluded 
that immigration reduced the average annual earnings of native-
born men without a high school degree by over 7 percent.
    In another recent paper published by the National Bureau of 
Economic Research, the authors concluded that immigration was 
responsible for 40 percent of the decline in Black employment--
among men--between 1980 and 2000. Their findings are supported 
by other research done by Andrew Sum and Paul Harrington at 
Northeastern University looking at the post-2000 period.
    Now it is true that some researchers have found no 
significant negative effect from immigration, but they have 
mostly done that by comparing differences across local labor 
markets. Economists now think that the effect of immigration is 
national in scope, and the effect is mostly on young and less-
educated workers, particularly minorities.
    When we focus on such workers and treat the economy as one 
big integrated whole, the economists do find significant 
negative effects from immigration. Now, of course, other 
factors adversely impact wages and employment for such workers, 
such as technology and globalization, but labor-saving devices 
and access to imports makes allowing in less-educated workers 
all the more unnecessary from an economic point of view. And 
immigration levels, unlike globalization or the pace of 
technological innovation, is something we can change.
    Now it is also important to understand that all research 
indicates that less-educated immigrants who create the job 
competition for less-educated natives consume much more in 
public services than they pay in taxes. The National Research 
Council found this. Often, the greatest strain is on services 
used by America's poor.
    Now some still argue for immigration on the grounds that it 
will stop the aging of America as a society. We are short of 
workers, and the idea is we are just growing old so fast. But 
no serious demographer actually makes this argument. Census 
Bureau projections indicate that if immigration were 200,000 a 
year, the working-age share of the population, 15 to 64 years 
of age, would be 59 percent in 2060. If it was a million a 
year, 5 times higher, the working-age percentage would be 60 
percent.
    So you could have a huge difference in immigration with a 
tiny difference in the working-age share. It does make, 
however, the population a lot larger. Those who wish to keep 
immigration levels at their current level or perhaps increase 
them further must at least understand that the policies that 
they favor come at the expense of the poorest and least 
educated Americans.
    Thank you.
    [The prepared statement of Mr. Camarota follows:]
                Prepared Statement of Steven A. Camarota

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you, Dr. Camarota.
    Because this is the minority's day of hearings, I will call 
first on the Ranking Member, Mr. King, for his 5 minutes of 
questions.
    Mr. King. Thank you very much, Madam Chair, and I 
appreciate that.
    I think with all the testimony that is here--and I 
appreciate it all--the part that is the least discussed is the 
recruitment channels for employees.
    And I think about how things work when I went down to go to 
work on a pipeline when I was 19 years old. People showed up, 
and some slept in campers. If you stayed there long enough, 
pretty soon, they would become trailer houses. Then they would 
begin to put foundations in and build homes, and towns start.
    The recruitment lines went back by familial lines. Anyway 
that the communications could go, from Haiti, from Iowa to 
Kansas, wherever it might be, that network has been how we 
recruited a group of employees.
    And, Mr. Beck, you spoke on that, and I would ask if you 
would expand on that thought for this Committee, please.
    Mr. Beck. Interesting you would bring up, you know, local 
personal experience. I grew up in the Missouri Ozarks in the 
1960's, and many of my friends--I was busy working in a steel 
plant there--were recruited to dig for pipelines through 
Nebraska and Kansas. This was grueling work, 60-hour-a-week 
work, but they offered good pay, and they had to do it because, 
at that point, they did not have these foreign labor channels 
to do it.
    I was watching a PBS special on the building of the Alaska 
pipeline, and I do not know if you have seen this recently, but 
it is amazing, you know, how incredibly awful the working 
conditions were, and yet they had people standing in line. They 
did not have enough jobs--they were terrible jobs--because they 
paid enough money.
    I have no doubt that the Colorado Tourism Ministry that I 
spoke to recently and said, you know, we would go out of 
business without foreign laborers, they used to have 
recruitment channels into places like St. Louis and Chicago and 
Dallas and Kansas City. They do not have those anymore.
    So, I mean, I think all of us can who are of a certain age 
can remember when those recruitment channels existed. One of 
the things that happens among young people is that if they do 
not see people their age or just above their age doing a job, 
they cannot necessarily imagine doing that job. So it is not 
going to be particularly easy.
    It is going to take a little bit of time for businesses to 
have to actually motivate. Recruitment means not just offering 
a job. It means motivating people to take this job. It means, 
in some cases, getting whole pure networks to come at the same 
time. But I do not think we are talking about people moving 
across the entire country either. In most places, you have 
plenty of labor within 100, 200 miles.
    Mr. King. Could I summarize that by suggesting that 
employers will do what is necessary and most efficient in order 
to recruit the labor that they need to do the job?
    Mr. Beck. They are not going to go out of business just 
because the Congress does not provide them easy foreign labor.
    Mr. King. And like electricity, follow the path of least 
resistance.
    I go to Dr. Camarota. You made the statement that the 
unemployment rates are not even relevant in this discussion, 
and it is interesting. I have not heard that statement made 
before this panel at any time. I am in my fifth year here. I 
might have missed it. But I would ask you to expand upon that a 
little bit.
    I went back to the U.S. Department of Labor, and I thought, 
well, if you are a company and you wanted to evaluate if you 
are going to establish, you know, in a locale, you would go in 
and do a survey and find out what is the available labor 
supply. The U.S. Department of Labor will get you those numbers 
if you break those statistics down. You have done that, and if 
you could speak to that issue, I would appreciate it.
    Mr. Camarota. Sure. Look, I mean, the national unemployment 
rate includes everyone, and it includes only those who say they 
are actively looking for a job at the time the Government asks.
    If we break that down and look at, say, workers with less 
than a high school education, their unemployment rate is 
usually two and often three times the national average. If we 
look at young workers who have only a high school degree but 
are under the age of 30, their unemployment rate is typically 
double the national average.
    Then there is the issue of all the people who are not even 
in the labor market, some 20 million people who have no 
education beyond high school, they are not in school, and they 
are not in the labor market right now. Now, obviously, not 
every one of those individuals wants to work.
    But to put some of this in perspective, if there are 23 
million less-educated natives, either unemployed or not in the 
labor market, 10 million teens, 4 million college students in 
the same situation, there are about 7 million illegal aliens. 
If you are asking me, ``Does it seem that we have easily the 
potential pool of workers to replace the 7 million illegal 
aliens?'' provided we pay well enough, yes.
    Mr. King. All right. Thank you, Dr. Camarota.
    Mr. Fair, Dr. Camarota made the statement that 40 percent 
of the decline in Black employment over the years 1980 to 2000 
was indexed to an increase in immigration--illegal immigration 
would be part of that--would you speak to that issue, please?
    Mr. Fair. Well, absolutely. There is no doubt about, as we 
look, for example, in Miami, that as the numbers rise in terms 
of legal and illegal immigration, then prosperity drops in our 
community. As we look at how they are recruited--you alluded to 
that earlier--it becomes quite clear that there is a system of 
informality that allows those, because of their numbers, to 
impact adversely on my community.
    If we go to Fort Lauderdale International Airport, nine out 
of 10 of the workers there happen to be Haitian, and you would, 
therefore, conclude that Black people who live in Liberty City 
do not want to work at the airport. That is not true. There is 
no official advertisement of the jobs into my community that 
Black folks are aware of. As a result of that, then it impacts 
adversely on our numbers because the jobs are there, folks take 
the jobs, and therefore the 40 percent keeps getting larger and 
larger.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. King. That is the recruitment channel that Mr. Beck 
addressed.
    I yield back.
    Ms. Lofgren. The Chair now recognizes Mr. Ellison for 5 
minutes.
    Mr. Ellison. Thank you, gentlemen, for your presentations. 
I appreciate it.
    I also thank the Chair and the Ranking Member for the 
hearing. It is a very important subject.
    I wonder, Mr. Fair, if you could talk about some of the 
efforts that have taken place from a governmental standpoint or 
it may be even a business-community standpoint in Liberty City 
or even Florida to do active recruitment efforts, training 
efforts, educational efforts to get the young Black men that 
you and I care so much about in a position to take the jobs 
that you are mentioning.
    So could you talk about what is going on without regard to 
immigration, but just things that we are doing to train and 
recruit and educate young African-American men to be ready for 
the job market? What is going on now?
    Mr. Fair. Through our South Florida workforce program, 
which is the primary Government-funded program whose purpose is 
to address that issue, there is a lot going on. The issue is 
not what is going on, but the issue is the magnitude of that 
which is going on.
    If you have a federally designed program to train and 
prepare 300 persons who are unemployed to participate in the 
job market, but the real population of need is 3,000 people, 
then you make no significant impact on the pattern then. So 
what is needed is a reallocation of significant resources to 
resolve the problem today, not tomorrow.
    Mr. Ellison. You know, Mr. Fair, I will agree with you 
wholeheartedly. I think you are dead on the mark.
    The thing that concerns me about the whole discussion we 
are having today is that, you know, for years and years--and, 
you know, I am a 43-year-old African-American man--I well 
remember looking for a job, having trouble getting one. In the 
programs available, the things to help me get employed were not 
easy to find, and yet in 2007, we are being told that it is the 
immigrants' fault. And I just do not buy that.
    I think that there has been a consistent neglect of young 
African-American men participating in the labor force for quite 
a long time, and now, all of a sudden, for political reasons, 
some people say, ``Oh, it is the immigrants,'' and I just have 
problems believing that.
    If I could ask you a question, Mr. Camarota, I thought your 
presentation was very interesting, and I think that you have an 
excellent command of the statistics in your presentation and I 
just want to ask you this question. You have made a good case, 
I think, that America does not have a labor shortage. There are 
more than enough native American workers to fill the 
particularly low-wage jobs out there.
    But that does not necessarily lead me to the conclusion 
that it is somehow foreign workers that are doing the 
displacing. I mean, that might be a reasonable conclusion to 
draw, but I wonder if you could help me draw the line a little 
bit tighter for me. For example, if you say there is a worker 
surplus for low-wage sector employment, can we then necessarily 
draw the conclusion that it is somehow the agency of low-wage 
foreign workers or their acts that are causing the displacement 
of the native workers?
    It seems to me that there is a real good chance that is the 
native corporate structure that is trying to get low-wage 
workers that are easy to manipulate, not likely to form a 
union, and are subject to being intimidated through Government 
acts and through ICI that sort of makes them really want to 
seek out these foreign workers, which is really the real 
causative factor.
    I wonder if you would comment, if you understand what I am 
saying.
    Mr. Camarota. Well, let me answer it this way. Maybe this 
is helpful. If the question is, is immigration the only problem 
that less-educated workers face or African-American men face, 
clearly, it is not. You have other structural problems in the 
U.S. economy.
    But take that NBER paper for example. It did say that 40 
percent of the problem seems to be related to immigration, and 
it is a 40 percent we could change. We could set a different 
immigration level and dramatically reduce it. It is very hard 
to instruct the Japanese to stop setting up factories in 
Malaysia or to slow the pace of technological innovation which 
generally disadvantages less-educated people. So this is 
something we have control over, we can actually do something 
about.
    And another issue is that there also is a kind of a 
crowding out for public services as well. So you do not just 
have labor market impact. You can also have impact, say, on 
health care and education for low-income populations. But 
immigration is not the only problem. Absolutely.
    Ms. Lofgren. The gentleman's time has expired.
    The Ranking Member, Mr. Smith, is recognized for 5 minutes.
    Mr. Smith. Thank you, Madam Chair.
    Mr. Fair, let me address my first question to you, but 
preface it by saying that, 2 weeks ago, I attended church in 
the Black community of San Antonio, and after church was over, 
I had breakfast with about 12 new friends in a room next to the 
church itself.
    The number-one issue they were concerned about was illegal 
immigration. That was from their heart. They have seen the 
evidence of it in their community, and they knew what they were 
talking about.
    It seems to me that unless we think we can somehow repeal 
the law of supply and demand when, as you said, when you get 
into the magnitude of the number of people coming in, the mass 
illegal immigration or mass legalization of illegal immigrants, 
that is inevitably going to have an adverse impact on lots of 
communities, but probably disproportionately the Black 
community.
    Why do you think that there are organizations, particularly 
even civil rights organizations, that deny that immigration has 
an impact? As Mr. Camarota just said, we know there are lots of 
reasons, but it would be dangerous denial to say that 
immigration is not one of the substantive reasons. Do you have 
any thoughts on that?
    Mr. Fair. I most certainly do, and it takes more than 5 
minutes, but it is called the complicity of race. And that 
means that for so long, we have been denied the right to be 
right about things that are important to us, that when we 
publicly are right, we get condemned. So the most important 
thing is for us to be liked by those even though they do not 
like us.
    It is amazing that if you look at the history of Black 
leadership on this issue, from A. Philip Randolph to Frederick 
Douglass, W.B. DuBois, they all were against immigration, but a 
strange thing happened on the way to the press conference. 
Their supporters initially were people who were immigrants and, 
therefore, suggested to them that you cannot be against us if 
you are not for us, and they had to withdraw their positions 
publicly. The only one that kept his position was A. Philip 
Randolph. He started out as a restrictionist. He ended up being 
a restrictionist.
    The leadership today is the same. They want to make sure 
that they are liked, but they cannot deny the reality, and if 
you talk to people, as you talked to those persons at the 
church, you will find that what they are saying nationally is 
not what we are feeling on the street.
    Mr. Smith. That is a profound statement. I thank you for 
that.
    Mr. Beck and Mr. Camarota, let me ask a question of you 
all.
    First of all, Mr. Beck, congratulations on the recent 10th 
anniversary of NumbersUSA and for all the good work that you 
have been doing.
    You mentioned Barbara Jordan. I served with Barbara. Or did 
I serve with Barbara Jordan? She was certainly a personal 
friend of mine, and I know we had to testify before the 
Immigration Subcommittee that I chaired years ago. I admire her 
work, and it is interesting that we are now disregarding her 
work.
    She, of course, is a former Congresswoman from Texas, 
African-American herself, and she saw clearly the dangers of 
illegal immigration to the American labor market, and since 
both of you all have testified about the labor market, that is 
really my question. Both of you have said that there is no 
labor shortage, that, in one case, wages are less than 
inflation for the low-skilled for the last several years. 
Clearly, immigration has an impact on that, although a lot of 
people tend to gloss over that.
    Do you all have any statistics to give us today as to how 
many legal immigrants there are in the so-called categories of 
jobs where illegal immigrants supposedly predominate? My 
figures are along the lines of, for instance, even in the 
service sector, even in the food industry, even in the 
construction industry, the vast majority of individuals are 
actually legal workers, and yet that is where the highest 
unemployment is among American workers because of the 
oftentimes low-skilled foreign workers who are coming in and 
displacing American workers.
    Mr. Beck and Mr. Camarota?
    Mr. Camarota. Yes. I mean, roughly speaking, in occupations 
like construction, building, cleaning and maintenance, or food 
preparation and service, about half of the immigrants in those 
occupations are illegal, about half are legal, but in most 
cases, about 70 to 80 percent of the people in those 
occupations are U.S. born. So illegals generally make up 
anywhere from 10 to 20 percent of the workers in those 
occupational categories.
    If I had time, I could go through and give you some more 
precise estimates, but roughly speaking, in most of those 
occupations, 80 percent of the people are legal and, in most 
cases, it is more than 80 percent. In fact, if you looked at 
all 370-plus occupations as defined by the Department of 
Commerce, you can basically not find any that are majority 
foreign born, let alone majority illegal.
    Ms. Lofgren. The gentleman's time has expired.
    We will now recognize Mr. Davis for his 5 minutes.
    Mr. Davis. Thank you, Madam Chairwoman.
    Let me welcome the panel.
    Mr. Fair, let me begin with a statement. I recognize I am 
not a witness today, but given my friend from Texas's comments 
and given your comments, I do want to put one thing in 
perspective. I do not know that generalizations help us a whole 
lot today.
    Mr. Fair, I noticed the title of your opening statement is 
a provocative one. It is ``Mass Immigration Versus Black 
America,'' which implies that there is a monolith of effect and 
a monolith of opinion within the Black community.
    You and I do not think alike on this issue. You and Mr. 
Ellison do not think alike on it. There is no monolith of 
opinion in the Black community. Some Black people would be 
supportive of one approach on immigration. Some, such as you, 
would take another. But I assume and hope you would agree with 
me there is no Black position on this.
    Let me move from that to another set of observations. I 
want to pick up on Mr. Ellison's points. Mr. Ellison was--and 
this is how I took Mr. Ellison's questions. I think trying to 
get you to focus on cause-effect. You lay out in your opening 
statement, your testimony today, a lot of effects.
    You worry, for example, about the fact that illegal aliens 
could be costing taxpayers $10 billion more in services than 
they pay in taxes, and then you make the statement that is $10 
billion that is not being spent on disadvantaged Americans. You 
mention social services.
    If I understand your testimony, your argument, the context, 
you have said that the money that we are spending on illegal 
aliens, in your opinion, takes dollars away from the safety net 
in this country. Is that a fair characterization?
    Mr. Fair. Yes, sir.
    Mr. Davis. Let's focus on $10 billion. Do you happen to 
support the Warner Act?
    Mr. Fair. Yes, sir.
    Mr. Davis. You do. Do you happen to know how much it has 
cost?
    Mr. Fair. No, I do not.
    Mr. Davis. Do you have any idea?
    Mr. Fair. No.
    Mr. Davis. Do you think it is in excess of $10 billion?
    Mr. Fair. Should be.
    Mr. Davis. It is actually, as I understand it, $8.4 billion 
a month. That is money that could be spent on social services, 
too, isn't it?
    Mr. Fair. Yes.
    Mr. Davis. Are you testifying before any Committee about 
the war on Iraq draining resources from social services?
    Mr. Fair. I have not been invited.
    Mr. Davis. Would you agree to testify to any Committee that 
the war on Iraq is costing too much money in social services? 
Is that a cause you have taken up, sir?
    Mr. Fair. No, I have not.
    Mr. Davis. You mention, for example, and you talk in your 
next paragraph about the fact that you think the presence of 
immigrants--legal and illegal, I am assuming--results in school 
overcrowding. Is that also an assertion of yours, that it has 
created overcrowded schools?
    Mr. Fair. Yes.
    Mr. Davis. You say it has diverted resources that could 
have been devoted to at-risk students. You are familiar with No 
Child Left Behind, are you not?
    Mr. Fair. Got my pin on.
    Mr. Davis. Are you aware that over the last 4 years that 
there has been a $17 billion gap between the authorizing levels 
of No Child Left Behind and the amount of money that Congress 
has put on the table?
    Mr. Fair. Yes, sir.
    Mr. Davis. Does that concern you?
    Mr. Fair. Yes, it does.
    Mr. Davis. Are you taking any newspaper ads out complaining 
about No Child Left Behind being underfunded?
    Mr. Fair. Not at this point, but if I get the opportunity--
--
    Mr. Davis. Well, it is your money and your opportunity. 
Have you purchased any newspaper ads regarding No Child Left 
Behind being underfunded?
    Mr. Fair. No, I have not.
    Mr. Davis. You ask in your opening statement, ``What is 
more likely to persuade a teenager in the inner city to reject 
the lure of gang life and instead stick with honest 
employment?'' And then you ask, ``Amnesty and more immigration 
or enforcement and less immigration?''
    I absolutely agree with you that gang life is a problem in 
many communities, including yours in Miami. I assume that part 
of the problem that there is a gang life is that there is a 
strong drug culture. Is that correct?
    Mr. Fair. Okay.
    Mr. Davis. I assume that part of the problem is gang life, 
is there is an absence of opportunities for young people when 
they leave school at 3. Do you agree with that?
    Mr. Fair. Yes, sir.
    Mr. Davis. Have you taken out any ads complaining about an 
absence of dollars for after-school programs, Mr. Fair?
    Mr. Fair. No, I have not.
    Mr. Davis. The point that I am making to you--and my time 
is limited, but I think you get and everyone in this room gets 
the point that I am making--there are a lot of things 
contributing to the absence of social services. There are a lot 
of things contributing to the desperate plight of young Black 
men. There are a lot of things contributing to the desperate 
plight of urban communities. And you have chosen to pick the 
one for your focus that is the most divisive, that is, frankly, 
the most corrosive.
    If you, frankly, would spend the same kind of energy 
criticizing budget priorities that shortchange those 
communities, if you spent the same kind of energy criticizing 
social neglect of those communities, you would be quite an 
eloquent voice in the debate. I have no doubt of that.
    But my disappointment is with the effort to generalize and 
to suggest that all Black folks think the same about this, and 
to suggest that this issue has the causal effect it does, I 
disagree with you about that.
    Ms. Lofgren. The gentleman's time has expired.
    The gentleman----
    Mr. King. Madam Chair, I ask unanimous consent the 
gentleman be allowed to respond to the 5 minutes of 
allegations.
    Ms. Lofgren. The gentleman from Alabama is recognized for 
an additional 1 minute.
    Mr. Davis. Thank you, Madam Chairwoman.
    I am happy to let you respond. Those were not allegations, 
Mr. Fair. I am simply stating my assertions. You are free to 
state yours.
    But I will end with this point. Yes, we need to do 
something about the illegal immigration that we have in this 
country. We all agree on that. We need to secure our border 
because things more dangerous than people can come over our 
border.
    I absolutely agree with you that if employers go out and 
hire illegals, they ought to be punished. I was a prosecutor. I 
sent people to jail for hiring illegals.
    But my concern is when you plunge in this issue and you get 
into this us-against-them rhetoric. I would submit--my final 
point, Madam Chairwoman--us-against-them politics, Mr. Fair, is 
not in the interest of racial minorities.
    Thank you, Madam.
    Ms. Lofgren. Mr. Fair?
    Mr. Fair. Thank you very much.
    First of all, let me congratulate you for reading my 
testimony.
    Secondly, let me also say that if you would state what you 
read correctly, I did acknowledge that all of those other 
circumstances exist that impact adversely on my community.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. King. Madam Chair, I would ask unanimous consent that 
the witness be allowed an additional minute to be able to 
respond to the question.
    Ms. Lofgren. I object because we have already been here an 
hour, and I am sure that Mr. Gallegly will invite the witness 
to respond further.
    Mr. Gallegly is recognized for 5 minutes.
    Mr. Gohmert. Parliamentary inquiry. Did the Chairwoman 
indicate that she was giving the gentleman from Alabama an 
additional minute to allow the witness to respond?
    Ms. Lofgren. There was a unanimous consent request. Time is 
not granted to witnesses. Time is granted Members of the 
Committee to yield, and the gentleman----
    Mr. Gohmert. Well, the record should note that he took all 
the time.
    Ms. Lofgren. Well, not all of the time, but I am sure Mr. 
Gallegly will correct that.
    Mr. Gallegly is recognized for 5 minutes.
    Mr. Gallegly. Not only are you a good Chairwoman, you are a 
very astute Chairwoman, and with that, I thank the gentlelady 
for the time.
    And I would very much like to have the opportunity to hear 
Mr. Fair respond to Mr. Davis's statement.
    Mr. Fair. Thank you very much, sir.
    As I pointed out, if you read my testimony, I did 
acknowledge and give credit to all of the other conditions that 
creates the problems that we are concerned about as it relates 
to the predicament of Black America.
    I also said in that statement that mass immigration is part 
of those issues that create the problem that we do not talk 
about, and since this was about immigration, it was appropriate 
for me, I thought, to point out my concerns about the impact of 
mass immigration, not the impact of drug culture, not the 
impact of ``dysfunctioning'' families, not the impact of 
anything called poverty or racism. But this was the context 
about the impact of mass immigration.
    I tried to do that, and I think I did that correctly, and I 
am in agreement with your observations that I should be equally 
as concerned about those other issues, and I think that my 
record speaks to the fact that I am more than equally concerned 
about those other issues.
    Mr. Gallegly. Mr. Fair, as the chairman of Florida's Board 
of Education, can you describe in your words the impact that 
the high number of children that speak no English or limited 
English? Has it or has it not or to what degree has it strained 
the schools in your State, especially those that have the 
greatest needs in the economically challenged areas?
    Mr. Fair. The impact, once again, is about resources and 
resource allocation. Clearly, we understand that in many 
instances when we have rules that allow both legal and illegal 
immigrants to come into our community, the burden of preparing 
those persons or taking care of those persons has always stayed 
with the local and State government. In two instances do we get 
enough money from the Federal Government in order to do those 
things that are related to the newfound citizens of the 
community.
    So part of what has been the challenge for the State of 
Florida, once again, is to always figure out how can it come up 
with additional resources that are necessary to meet those 
needs without any real resources coming from the Federal 
Government. It is a strain. It is a budgetary one.
    Mr. Gallegly. Mr. Fair, would you say it is a reasonable 
assessment to say that illegal immigration affects those most 
that can least afford to be, that have the greatest needs?
    Mr. Fair. Everything that I have been able to read and 
understand, whether it is a CIS report or a NumbersUSA report 
or a FAIR report or a scholarly report from Harvard or from 
Northeastern University, all support the fact that in spite of 
what we think, the reality is that it does impact adversely on 
those who can least afford it.
    Mr. Gallegly. Thank you, Mr. Fair.
    Mr. Camarota, you know, we have heard lots of numbers, and, 
unfortunately, there is no real way to clearly define what the 
real accurate number is. We hear 12 million. We hear 20 
million. But by the most conservative estimates today, we very 
seldom hear less than 12 million. So let's say that we are 
going to accept the most conservative number being 12 million.
    We have also heard that most experts agree that a single 
immigrant may be responsible for at least 10 that they would 
subsequently sponsor once they got amnesty or some form of 
status. Let's say that we take only a percentage of that, two, 
which would be a conservative number. That would translate into 
an additional 24 million that would be entering the country 
over the next 10 years.
    Could you just give me a brief response whether you would 
agree with those numbers as being conservative, and what kind 
of an impact would that have, particularly on low-skilled 
native workers?
    Mr. Camarota. Okay. Very briefly, if we legalize those 
here, obviously, it could stimulate a lot more legal 
immigration. The last amnesty most certainly did. Legal 
immigration is double what it was prior to the amnesty. So, 
yes, certainly, if we legalize 10 million or 12 million people, 
we could stimulate a lot, and, again, because the people 
legalized have very little education----
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Camarota [continuing]. It would tend to stimulate legal 
immigration of people with very little education as well.
    Ms. Lofgren. The gentleman's time has expired.
    The gentlelady form Texas is recognized for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Madam Chairwoman.
    And thank you to all the witnesses.
    Mr. Fair, welcome.
    Mr. Fair. Thank you.
    Ms. Jackson Lee. I have had the opportunity to question the 
organizations represented by Mr. Beck and Dr. Camarota. In 
fact, I think, Dr. Camarota--hello--you have seen me in years 
past--and so forgive me if I focus on Mr. Fair.
    Let me make a personal statement and thank Chairwoman 
Lofgren. It should be very clear how unique, how different, how 
far reaching the approach on this comprehensive immigration 
reform has now taken under her chairwomanship. I served for 6 
years as the Ranking Member in hearings that then the minority 
desired to have could never be heard. We could never be heard. 
And so I think it is a tribute to the new attitude of this 
Congress to want to make sure that all voices are taken into 
consideration as we move toward this very, very important step.
    I say that to Mr. Beck and Dr. Camarota because your 
information is important. We will be utilizing that data. It is 
important.
    Mr. Fair, it is important to note, as I acknowledge the 
importance of statistics, that the overall perspective, I might 
disagree with you on--and let me just be very clear--but I 
welcome the discussion. Why? I am a former board member of the 
Houston Area Urban League. I champion the leadership over the 
years that the Urban League has fostered on issues of 
economics, job training.
    I know you know from whence you speak, and I appreciate 
that you have given us the opportunity to carry this discussion 
even if in the backdrop of a position that I question, but I 
certainly welcome because I believe if we are going to get 
comprehensive immigration reform, your interests, your needs 
have to be considered.
    So let me welcome you and pose a number of questions for 
you in light of that.
    First of all, I think it is important to note that there 
are many different constituencies that will be addressing this 
question. I have lived with the comprehensive question, and so 
I find it crucial, wearing several hats, that whether it is 
humane, whether it is through homeland security, whether it is 
because we are a mosaic nation, that we find a road map to 
document those who are undocumented. I think we need to find a 
way to address the question of the need of temporary workers. I 
also believe that we have to find a way to ensure that 
populations that you speak about are stakeholders in the 
process.
    Now I heard someone on the radio say, ``I am so mad 
because'' my son or daughter ``cannot get a job at Burger 
King.'' I do not want to denigrate Burger King. Of course, this 
was an African-American person. I do not want to denigrate 
Burger King, but I want their son or daughter to maybe pass by 
Burger King and work at Microsoft or be a refined educator or 
whatever as we move up the economic ladder. I do not want to 
fight over Burger King, and I am not denigrating it.
    But I will say to you there is a vast need of diverse 
workforce. Some of those happen to be people who are now 
undocumented. But how do we get to where you want to go? Here 
is what I want to ask.
    I also want to make note so that the record can be clear. 
The Congressional Black Caucus and the Asian Pacific Caucus, 
the Hispanic Caucus are working together. No voice is going to 
be left out, and we are hearing your voice. That is what I 
think is important. I do not want you to think that you are up 
here with the lights out and the shades down. The Chairwoman 
has been very, very open to hearing different viewpoints.
    But the question has to be: How do we get to where you want 
to be? Race matters, does it not, Mr. Fair?
    Mr. Fair. Yes, it does.
    Ms. Jackson Lee. It is still a question.
    And I notice in this book, we have a number of issues, the 
state of civil rights, the unequalness as it relates, but my 
question is if we can get an immigration bill that partnerships 
job training, job retention, I do not want to say 
protectiveness, but hire American first, alongside of 
recognizing that we have to secure America, can you work along 
those lines where language would be to tie the growth of 
immigration to retaining jobs, training, going in to 
underserved areas and providing real training dollars, not the 
kind that you cannot find?
    I yield to the gentleman.
    Mr. Fair. Thank you very much, and I think you are 
absolutely correct. The issue becomes, as we pursue a 
comprehensive reform, that we also take into consideration the 
impact that that reform is going to have on American citizens. 
We also understand that it is much more palatable when we begin 
to look for solutions, when we articulate to the masses that we 
also are concerned about your current condition.
    It is not about making excuses. It is about understanding 
that no matter what you do, you have to make sure that what you 
do impacts on everybody. Part of that solution, for example, is 
going back to Whitney M. Young's Marshall Plan.
    Ms. Jackson Lee. Yes.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. Well, my sentence, as it expires, is I 
recocommend that you read the Save America Comprehensive 
Immigration Reform, the parts of that that talk about job 
training and tying it to comprehensive immigration reform.
    I thank the gentleman, and I yield back.
    Ms. Lofgren. The gentlelady's time has expired.
    The gentleman from California, Mr. Lungren, is recognized 
for 5 minutes.
    Mr. Lungren. Thank you very much, Madam Chairwoman.
    I would just have to take issue with one of the statements 
made that somehow allowing minority day and minority views is a 
new day in this Committee.
    I chaired a hearing on behalf of Mr. Coble last year 
dealing, I believe, with one of the issues surrounding the 
Patriot Act and Habeus Corpus and so forth. We held that. We 
were not the only Subcommittee that did it. I chaired it. I 
allowed two rounds. I allowed extra time for everybody. And to 
suggest that somehow we did not allow minority----
    Ms. Jackson Lee. Would the gentleman yield?
    Mr. Lungren. No. I do not have the time to yield because we 
are being kept to a very----
    Ms. Jackson Lee. Well, I hope I will be able to explain it 
on my time. Thank you.
    Mr. Lungren. We are being kept to a very short 5 minutes 
here, and I just want to say that fairness is fairness, and I 
appreciate the fact that----
    Ms. Jackson Lee. Not immigration. It was not fair.
    Mr. Lungren. Could we have order, please?
    Ms. Lofgren. The gentleman controls the time.
    Mr. Lungren. Well, it is tough to control the time.
    Ms. Lofgren. I am trying.
    Mr. Lungren. I come here from a different perspective, I 
think, than some people on this panel. I was here not when 
Barbara Jordan was here with her commission, but I go back to 
the commission that was co-chaired by Father Hesburgh who made 
the statement that we must close the back door of illegal 
immigration so that we can keep the front door, legal 
immigration, open.
    So I am not one of those who believe that we ought not to 
have immigration. I believe that we ought to have a controlled 
immigration system, and that requires us to stop illegal 
immigration.
    But I also must say that when we were dealing with the 
issue in the late 1970's that our unemployment rate was over 6 
percent, sometimes 7.5 percent or higher than that. Most 
economists believed that full employment would always leave you 
with at least 6 percent unemployment. We are now running at 
about 4.4, 4.5 percent. We have to understand that we have 
different economic circumstances now that are actually better.
    However, the real problem remains that we have large 
pockets of unemployment, particularly among minority 
communities, and that is something that all of us, I think, on 
a bipartisan basis, ought to be concerned about.
    I do not have a study, but anecdotally--I used to work in 
construction--frankly, the face of construction has changed in 
the last 20 years, and in some cases, unless you know Spanish, 
you cannot get a job in construction, and I see a paucity of 
African-American young men working in construction.
    Now I wish the gentleman that made assertions--I think that 
was the word--was still here because I think that we have to 
deal with that. And so, that is my perspective.
    And here is what I would like to ask Mr. Beck and Dr. 
Camarota. I happen to be one of those who do not believe that 
we can take 12 million people out and somehow round them up and 
send them home. I think we have to do something. It cannot be 
amnesty from my standpoint as I define it.
    But my question is this: If we were to have a program, such 
as has been talked about being negotiated or at least talked 
about in the Senate, of a legal status for those who have been 
here illegally, have not broken the law, speak English, can 
take care of themselves and so forth, they would have to do it 
every 3 years, they have to pay a penalty, they do not have the 
right to bring in other family members, that time is not a new 
time to count toward citizenship--so they are here, but they 
are here under legal circumstances--wouldn't that be 
preferable?
    And then we would have real enforcement--real enforcement--
I mean employer sanctions and some real means of 
identification, a tamper-proof Social Security card and a 
worker card, whatever you want to call it, wouldn't that be a 
better situation than what we have today?
    Mr. Beck. It would be marginally better, yes, but the key 
factor with illegal immigrants--the Jordan Commission found 
this--was not that they are illegal, but that they are here, 
and that is the reason why the level of legal immigration is 
too high as well. That is----
    Mr. Lungren. Well, do you want to cut off all immigration?
    Mr. Beck. No, but immigration should be reduced back, as 
the Jordan Commission said, to a level that actually serves the 
national interests. We have all of these----
    Mr. Lungren. So you are talking about immigration--it does 
not matter, legal or illegal?
    Mr. Beck. The Jordan Commission recommended deep cuts in 
our legal----
    Mr. Lungren. I understand that.
    Mr. Camarota. Well, I mean, the research does not suggest 
that illegals work for dramatically less, though clearly that 
happens. Rather, it is just their presence here. If you are 
concerned about low-skilled workers, then do not import so many 
and try to make as many of them go home. Legalizing does not 
solve that problem.
    Ms. Lofgren. The gentleman's time has expired.
    The gentleman from Texas is recognized for 5 minutes.
    Mr. Gohmert. Thank, Madam Chairman.
    I would like to come back to Mr. Fair, and I really 
appreciated your responses to the assertions from the gentleman 
from Alabama. I wish he had been here to hear all of your 
response to his assertions. You made some good points.
    All of you have made some good points. I know it takes time 
out of your schedule, and you do not get paid for being a 
witness here, so we greatly appreciate all three of your input 
into the process. I think it is better when you do not get 
lectured the whole time when you come here to testify.
    But, Mr. Fair, you brought up Miami as a good example, and 
you basically raised a question about what happened to the 
African-American workers that you had seen in the hotels and 
other places working that you say now are being held by 
immigrants, regardless legal or illegal.
    It raises a question--and I am curious--do you know what 
has happened to those African-American workers that you used to 
see? Are there any surveys or studies that have shown? Are 
these part of the ones that have just become disenfranchised 
and not even seeking work? Do you know where they are now?
    Mr. Fair. I think it is probably a combination of all of 
the above. One of the things that we cannot get in Miami is a 
discussion around this issue. If you have a discussion around 
this issue, then someone assumes that you are having a 
discussion because you are anti-someone being present. 
Therefore, we can never have the discussion. I am hoping that 
Steve and CIS, for example, would do a study. It would be 
interesting to know where Black America in Miami would be 
today, for example, had not the Cubans come.
    Mr. Gohmert. Well, I am curious where they are today.
    Mr. Fair. Well, some of us say that they are dead, they are 
incarcerated, they are part of that 80 percent between 18 and 
40 that are unemployed. They are part of the new illegal 
culture in the community. I do not know, but some of these 
academicians, like Steve and CIS and Roy Beck from NumbersUSA, 
ought to really document that so you and I would have that 
answer.
    Mr. Gohmert. Okay. But you do not know of a current study 
that gives us that information?
    Mr. Fair. No.
    Mr. Gohmert. But you are right. It would be very helpful.
    Do you other two know of any studies of that nature?
    Mr. Camarota. Well, basically, there is a very long 
literature showing that less-educated Black men have left the 
labor force in large numbers in cities like Miami.
    In answer to the question, clearly, Blacks have upscaled, 
so there would be less working in those jobs, and there was 
some attrition out, and so, basically, some got better 
employment, some retained the job and a whole lot seems to have 
just left the labor market entirely and do not even show up in 
unemployment statistics, and a lot of others are now 
intermittently employed, so they are unemployed, employed, 
unemployed. So that is sort of the answer.
    It is a mixed bag. Some were crowded out and went elsewhere 
and did okay, and some seem to have done quite poorly.
    Mr. Beck. I would just like to comment about the history, 
and I happen to be the author of a couple of books, lots of 
research particularly focused on the relationship between mass 
immigration and Black Americans beginning in the 1820's.
    What history shows is that every time we have spikes of 
mass immigration, Black Americans' employment opportunities go 
down. Wage depression hits all American workers, but especially 
Black Americans, and that is a function of race and culture.
    Right now, Mr. Fair, listening to his testimony, I am 
hearing sometimes it is not race, it is culture. There is a 
preference of Haitian workers over the descendants of American 
slaves, and I think that is tied very much into culture of 
guilt and almost like White majority society's guilt about 
slavery and, therefore, they take it out on the people that 
just their presence make them feel guilty.
    But the literature is very clear that throughout American 
history, high immigration means a step backwards for Black 
progress. It has happened over and over again. It is happening 
right now.
    Mr. Gohmert. Well, as my time is getting closer to 
expiring, maybe a study like that would be helpful.
    I would like to comment. Yes, I would like for all 
Americans to be able at some point to drive past Burger King 
and have other employment, but I think the far greater tragedy 
is those who have come disenfranchised and are not even trying. 
There is the real tragedy because some of us started out having 
some of the worst jobs--cleaning toilets, for example, that 
nearly made me throw up--but that gave me opportunities to keep 
moving on, and crawling under houses for a job that you had to 
dig your way in and dig your out, hauling hay 18 hours a day. 
Those jobs may be menial and some think less respectable, but I 
would submit they give you a chance to move on to better 
education.
    Thank you all very much.
    Ms. Lofgren. The gentleman's time has expired.
    The Chair recognizes herself for 5 minutes. I just wanted 
to make a couple of comments.
    First, in our hearing last week, we had very interesting 
testimony, and one of the pieces of testimony was about a study 
done by Professor David Card of Princeton University. Rather 
than do the analysis that economists do, they took an actual 
event and studied it, and what they did was they studied the 
Mariel boat lift into Cuba to see what happened when 125,000 
individuals, primarily low-skilled, all of a sudden in a very 
short period of time jumped into Miami.
    It increased the population of Miami, according to the 
study, by 7 percent, and what they found was, surprisingly or 
not, there was no adverse impact on the employment at any 
level, not among Cubans, a very tiny, slight effect on Cubans, 
no adverse impact on African-American workers. They did 
controlled studies in Atlanta, Houston and Los Angeles, and 
without objection, I am going to make the underlying economic 
report a part of the record--and I will also provide it to you, 
Mr. Fair--along with the updated study from 2005 which I will 
also make part of the record, without objection.
    Also, the Ranking Member mentioned that there are these 
studies, and they are absolutely correct because they have not 
been countered, and I think certainly they have been countered 
by witness after witness. I just want to mention a critique, 
which, without objection, I will make part of the record, of 
The Heritage Foundation which is often cited.
    This report from the Immigration Policy Center describes 
The Heritage Foundation as ``deeply flawed'' and that it relies 
on ``inflated statistics and dubious assumptions to arrive at 
its flawed conclusions.'' It goes on to say that the report 
contributes to ``low-income households the cost of political 
decisions over which they have no control. For instance, the 
Heritage report's accounting low-income households are 
responsible for a share of the billions of dollars being spent 
in Iraq.''
    And they also allocate to immigrants ``the payment on the 
national debt stemming from the enactment of tax cuts'' that 
have created a huge hole in the budget, and they also go on to 
say that the report does not accurately gauge the impact of any 
group on the U.S. economy as a whole.
    I would like to just read a section on page 6 of the 
report. ``To the extent that the Heritage report mentions 
immigration at all, it is to raise the specter of immigration 
reform unleashing a flood of low-wage immigrants into the U.S. 
labor market and dramatically increasing the fiscal burden on 
U.S. taxpayers. The authors support this grim scenario by 
citing another Heritage report from May of 2006 which presented 
inflated estimates of the increase in legal immigration that 
allegedly would result'' from the bill in the Senate last year.
    ``The 2006 report claimed that the bill would allow 
anywhere from 66 million to 217 million new immigrants into the 
United States over the next 20 years. The outlandishness of 
these projections is evident in the fact that the estimate of 
217 million is 70 million more than the combined populations of 
Mexico, Belize, Guatemala, Honduras, El Salvador, Nicaragua, 
Costa Rica and Panama. The 2006 report arrived at these 
estimates largely through statistical slight of hand in which 
many categories of immigrants were double counted.''
    And, without objection, this report is a part of our 
record.
    [The information referred to is inserted in the Appendix.]
    Ms. Lofgren. I just think it is important that we have the 
facts before us. We are all entitled to our opinions, but we 
are not entitled to our own facts.
    At this point, I would like to recognize the gentlelady 
from Texas for a unanimous consent request. Ms. Jackson Lee, 
did you have a unanimous consent request?
    Ms. Jackson Lee. I certainly did. Let me thank the 
Chairwoman. I would like to put into the record the chapter 
from ``The State of Black America 2007,'' the section, Mr. 
Fair, on status of civil rights by Ted Shaw. And I would like 
to ask unanimous consent to submit that into the record.
    Ms. Lofgren. Without objection.
    [The information referred to is inserted in the Appendix.]
    Mr. King. Madam Chair? Madam Chair, I have a unanimous 
consent request.
    Ms. Lofgren. I am sorry?
    Ms. Jackson Lee. I am sorry. I did not----
    Ms. Lofgren. All right. Without objection, Mr. King, you 
have a unanimous----
    Ms. Jackson Lee. I did not finish mine.
    Ms. Lofgren. Oh, I am sorry. I did not mean to cut you off 
of your unanimous consent request.
    Ms. Jackson Lee. Thank you.
    And I would like to also put into the record section 703 of 
H.R. 750, the ``Save America Comprehensive Immigration Act of 
2007,'' Mr. Fair, that talks about the issue of recruitment of 
American workers.
    [The information referred to is inserted in the Appendix.]
    Ms. Jackson Lee. I would clarify the fact that, as the 
Ranking Member on this Committee on Immigration, we never were 
able to hear the then-minority view, which was the view of 
Democrats at that time. And I thank the gentlelady.
    Ms. Lofgren. My time has expired.
    I recognize the Ranking Member for a unanimous consent 
request.
    Mr. King. Thank you, Madam Chair.
    I ask unanimous consent that the Rector study be introduced 
into the record.
    Ms. Lofgren. Without objection.
    [The information referred to is inserted in the Appendix.]
    Mr. King. And I might also, if the Chair would submit, do a 
very short colloquy.
    Ms. Lofgren. We have been here for an hour and 35 minutes. 
So the Member is recognized for 1 minute.
    Mr. King. Okay. And I would ask the Chair if she would 
consider holding a hearing and allow the author of the study 
from the Immigration Policy Center to testify before this 
Committee alongside the author of the Rector study so we would 
have an opportunity to evaluate the perspectives of those two 
experts.
    Ms. Lofgren. We will certainly consider any requests by the 
minority. We are mindful that we have a very aggressive 
schedule of hearings and very few days to do it. And so, if the 
request would be proposed to us in writing, we will consider 
it, understanding that we are in conflict with other 
Subcommittees, and finding dates when we can actually meet has 
proven to be quite a challenge. But we will do our very best.
    Mr. King. Thank you, Madam Chair.
    Ms. Lofgren. At this point----
    Mr. Gohmert. Parliamentary inquiry.
    Ms. Lofgren. Yes?
    Mr. Gohmert. A comment was made that the minority position 
was never allowed to be heard in the last term. Was there ever 
a minority request made in the last----
    Ms. Lofgren. The gentleman has not stated a parliamentary 
inquiry.
    Without objection, Members will have 5 legislative days to 
submit any additional written questions to you witnesses, which 
we will forward and ask that you answer as promptly as you can, 
to be made part of the record.
    Without objection, the record will remain open for 5 
legislative days----
    Mr. Gohmert. Parliamentary inquiry.
    Ms. Lofgren [continuing]. For the submission of any other 
additional materials.
    I would like to extend an invitation to everyone here to 
attend our next two hearings on comprehensive immigration 
reform. On Tuesday, May 15, at 9:30 a.m., we explore issues 
relating to how immigrants assimilate into American 
communities.
    And, with that, this hearing is adjourned.
    [Whereupon, at 11:33 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  ``The Impact of the Mariel Boatlift on the Miami Labor Market'' by 
    David Card, August 1989, submitted by the Honorable Zoe Lofgren

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


``Is the New Immigration Really So Bad?'' by David Card, January 2005, 
                 submitted by the Honorable Zoe Lofgren

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  ``Dollars without Sense: Underestimating the Value of Less-Educated 
    Workers'' by Walter A. Ewing, Ph.D. and Benjamin Johnson of the 
  Immigration Policy Center, May 2007, submitted by the Honorable Zoe 
                                Lofgren
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  ``The State of Civil Rights'' by Theodore M. Shaw from The State of 
 Black America 2007, published by the National Urban League, submitted 
                  by the Honorable Sheila Jackson Lee
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Section 703 of HR 750, ``Recruitment of American Workers in the Save 
   America Comprehensive Immigration Act of 2007'' submitted by the 
                      Honorable Sheila Jackson Lee
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   ``The Impact of New Immigrants on Young Native-Born Workers, 2000-
  2005'' by Andrew Sum, Paul Harrington, and Ishwar Khatiwada of the 
   Center for Immigration Studies, September 2006, submitted by the 
                        Honorable Elton Gallegly

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 ``The Fiscal Costs of Low-Skill Households to the U.S. Taxpayer'' by 
Robert Rector, Christine Kim, and Shanea Wilkins, Ph.D. of The Heritage 
           Foundation, submitted by the Honorable Steve King

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
